<html>
<title> - BUSINESS AS USUAL? ASSESSING HOW DHS CAN RESUME OPERATIONS SAFELY</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                   BUSINESS AS USUAL? ASSESSING HOW DHS CAN 
                           RESUME OPERATIONS SAFELY

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                         OVERSIGHT, MANAGEMENT,
                           AND ACCOUNTABILITY

                                 OF THE

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             JUNE 16, 2020

                               __________

                           Serial No. 116-70

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 
                                     

        Available via the World Wide Web: http://www.govinfo.gov

                               __________

                   U.S. GOVERNMENT PUBLISHING OFFICE                    
43-088 PDF                  WASHINGTON : 2021                     
          
--------------------------------------------------------------------------------------



                     COMMITTEE ON HOMELAND SECURITY

               Bennie G. Thompson, Mississippi, Chairman
Sheila Jackson Lee, Texas            Mike Rogers, Alabama
James R. Langevin, Rhode Island      Peter T. King, New York
Cedric L. Richmond, Louisiana        Michael T. McCaul, Texas
Donald M. Payne, Jr., New Jersey     John Katko, New York
Kathleen M. Rice, New York           Mark Walker, North Carolina
J. Luis Correa, California           Clay Higgins, Louisiana
Xochitl Torres Small, New Mexico     Debbie Lesko, Arizona
Max Rose, New York                   Mark Green, Tennessee
Lauren Underwood, Illinois           John Joyce, Pennsylvania
Elissa Slotkin, Michigan             Dan Crenshaw, Texas
Emanuel Cleaver, Missouri            Michael Guest, Mississippi
Al Green, Texas                      Dan Bishop, North Carolina
Yvette D. Clarke, New York           Jefferson Van Drew, New Jersey
Dina Titus, Nevada
Bonnie Watson Coleman, New Jersey
Nanette Diaz Barragan, California
Val Butler Demings, Florida
                       Hope Goins, Staff Director
                 Chris Vieson, Minority Staff Director
                               
                               ------                                

       SUBCOMMITTEE ON OVERSIGHT, MANAGEMENT, AND ACCOUNTABILITY

              Xochitl Torres Small, New Mexico, Chairwoman
Dina Titus, Nevada                   Dan Crenshaw, Texas, Ranking 
Bonnie Watson Coleman, New Jersey        Member
Nanette Diaz Barragan, California    Clay Higgins, Louisiana
Bennie G. Thompson, Mississippi (ex  Jefferson Van Drew, New Jersey
    officio)                         Mike Rogers, Alabama (ex officio)
                Lisa Canini, Subcommittee Staff Director
            Katy Flynn, Minority Subcommittee Staff Director
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Xochitl Torres Small, a Representative in Congress 
  From the State of New Mexico, and Chairwoman, Subcommittee on 
  Oversight, Management, and Accountability:
  Oral Statement.................................................     1
  Prepared Statement.............................................     2
The Honorable Dan Crenshaw, a Representative in Congress From the 
  State of Texas, and Ranking Member, Subcommittee on Oversight, 
  Management, and Accountability:
  Oral Statement.................................................     3
  Prepared Statement.............................................     4
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Chairman, Committee on 
  Homeland Security:
  Oral Statement.................................................     7
  Prepared Statement.............................................     8

                               Witnesses

Mr. Anthony M. Reardon, National President, National Treasury 
  Employees Union:
  Oral Statement.................................................     9
  Prepared Statement.............................................    11
Dr. Everett B. Kelley, National President, American Federation of 
  Government Employees, AFL-CIO:
  Oral Statement.................................................    15
  Prepared Statement.............................................    16
Mr. Brandon Judd, National President, National Border Patrol 
  Council:
  Oral Statement.................................................    21
  Prepared Statement.............................................    23

                                Appendix

Questions From Honorable Bonnie Watson Coleman for Anthony M. 
  Reardon........................................................    35
Questions From Honorable Bonnie Watson Coleman for Everett Kelley    37
Questions From Honorable Bonnie Watson Coleman for Brandon Judd..    38

 
   BUSINESS AS USUAL? ASSESSING HOW DHS CAN RESUME OPERATIONS SAFELY

                              ----------                              


                         Tuesday, June 16, 2020

             U.S. House of Representatives,
                    Committee on Homeland Security,
                    Subcommittee on Oversight, Management, 
                                        and Accountability,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 12:05 p.m., 
via Webex, Hon. Xochitl Torres Small [Chairwoman of the 
subcommittee] presiding.
    Present: Representatives Torres Small, Titus, Watson 
Coleman, Barragan, Thompson, and Crenshaw.
    Ms. Torres Small. The Subcommittee on Oversight, 
Management, and Accountability will come to order.
    Let me begin by thanking all of my colleagues for joining 
us today for the first fully remote proceeding for the 
Committee on Homeland Security.
    The COVID-19 pandemic has interrupted all of our daily 
lives and the ability of the House to safely conduct its 
business. I want to thank my colleagues for coming together, 
despite differences and reservations regarding continuing our 
business in a remote setting, to move forward in a productive 
bipartisan manner for the benefit of our constituents and our 
country. I look forward to the day when we can all safely meet 
together in person, and I am so grateful to have all of you as 
colleagues.
    With that, I turn to the topic of today's hearing, the 
Department of Homeland Security's DHS plans to resume 
operations in the wake of the coronavirus pandemic.
    First, I want to acknowledge that many of DHS's employees 
never stopped working during the pandemic. They faced 
unprecedented challenges, and I thank them for continuing to 
carry out their important missions during these challenging 
times. That said, the pandemic has required the Department to 
significantly adjust its operations in ways it never had to 
before. Employees that could work remotely shifted to telework, 
procedures for those that couldn't were altered or suspended 
altogether. For example, the Federal Law Enforcement Training 
Center, FLETC, which trains law enforcement officers across DHS 
and other Federal agencies, halted all in-person trainings for 
12 weeks. DHS also closed immigration service centers and 
enrolled centers for Trusted Traveler Programs, such as the 
Transportation Security Administration's PreCheck and Customs 
and Border Protection's Global Entry.
    As DHS resumes these operations, it is important that the 
Department have plans in place to adequately protect the work 
force's health and safety, such as regularly cleaning 
facilities, adjusting work spaces to align with social 
distancing guidelines, and providing personal protective 
equipment. Since infection rates have begun to rise in some 
areas of the country, comprehensive testing, especially for 
front-line operators, and contract tracing is also necessary to 
minimizing exposure.
    Given the Department's mission, most DHS employees have 
continued to work on the front lines, answering the call to 
protect our Nation from a variety of threats. But the recent 
pandemic has required considerable and unparalleled sacrifices 
from these dedicated public servants. Many have been working 
around the clock to coordinate assistance and response efforts, 
and front-line operators face an even greater-than-normal risk 
of exposure to this deadly virus.
    All the while, workers are juggling concerns about the 
well-being of their loved ones and family commitments, with 
most schools and day cares closed. I worry about what toll this 
will have on employee retention and the already low morale, an 
issue this subcommittee has explored during a hearing earlier 
this year.
    The Department itself is not immune to the virus. To date, 
DHS has experienced over 1,600 COVID-19 cases, including 10 
deaths among its work force. My condolences go out to the 
families and friends of those employees that have succumbed to 
the disease.
    Now, more than ever, it is important that DHS ensure its 
work force feels safe and supported as it carries out its vital 
mission to protect the homeland. To that end, I support 
providing hazard pay to front-line workers who face increased 
exposure to the virus while on duty, and look forward to 
hearing from our witnesses today on their views of DHS's effort 
to protect the work force and any recommendations for how we in 
Congress can support the Department as it resumes operations. 
Thank you again for joining us today.
    The Chair now recognizes the Ranking Member of the 
subcommittee, the gentleman from Texas, Mr. Crenshaw, for an 
opening statement.
    [The statement of Chairwoman Torres Small follows:]
              Statement of Chairwoman Xochitl Torres Small
                             June 16, 2020
    Let me begin by thanking all of my colleagues for joining us today 
for the first fully remote proceeding for the Committee on Homeland 
Security. The COVID-19 pandemic has interrupted all of our daily lives 
and the ability of the House to safely conduct it.
    While I understand that some of my colleagues may have reservations 
about continuing with our business in a remote setting, and I look 
forward to the day when we may all safely meet together in person, I am 
grateful that we have been able to come together to move forward in a 
productive, bipartisan manner for the benefit of our constituents and 
the country.
    With that, I turn to the topic of today's hearing, the Department 
of Homeland Security's (DHS) plans to resume operations in the wake of 
the coronavirus pandemic.
    First, I want to acknowledge that many of DHS's employees never 
stopped working during the pandemic and I thank them for continuing to 
carry out their important missions during these challengeing times. 
That said, the pandemic has required the Department to significantly 
adjust its operations in ways it never had to before. Employees that 
could work remotely shifted to telework. Procedures for those that 
couldn't were altered or suspended altogether.
    For example, the Federal Law Enforcement Training Centers (FLETC)--
which trains law enforcement officers across DHS and other Federal 
agencies--halted all in-person trainings for 12 weeks. DHS also closed 
immigration service centers and enrollment centers for trusted traveler 
programs, such as the Transportation Security Administration's (TSA) 
PreCheck and Customs and Border Protection's Global Entry.
    As DHS resumes these operations, it is important that the 
Department have plans in place to adequately protect the workforce's 
health and safety. Such as regularly cleaning facilities, adjusting 
workspaces to align with social distancing guidelines, and providing 
personal protective equipment. Since infection rates have begun to rise 
in some areas of the country, comprehensive testing--especially for 
front-line operators--and contact tracing may also be key to minimizing 
exposure.
    Given the Department's mission, most DHS employees have continued 
to work on the front lines answering the call to protect our Nation 
from a variety of threats. But the recent pandemic has required 
considerable and unparalleled sacrifices from these dedicated public 
servants. Many have been working around the clock to coordinate 
assistance and response efforts, and front-line operators face an even 
greater-than-normal risk of exposure to the deadly virus. All the 
while, workers are juggling concerns about the well-being of their 
loved ones and family commitments with most schools and daycares 
closed.
    I worry about what toll this will have on employee retention and 
already low morale--an issue this subcommittee explored during a 
hearing earlier this year. The Department itself is not immune to the 
virus. To date, DHS has experienced over 1,600 COVID-19 cases, 
including 10 deaths, among its workforce.
    My condolences go out to the families and friends of those 
employees that have succumbed to the disease. Now, more than ever, it 
is important that DHS ensure its workforce feels safe and supported as 
it carries out its vital mission to protect the homeland.
    To that end, I support providing hazard pay to front-line workers 
who face increased exposure to the virus while on duty.
    I look forward to hearing from our witnesses today on their views 
of DHS's efforts to protect the workforce and any recommendations for 
how we in Congress can support the Department as it resumes operations.

    Mr. Crenshaw. Thank you, Chairwoman Torres Small.
    I want to start my statement by remembering and 
commemorating the life and service of Border Patrol Agent Johan 
Mordan. Agent Mordan's watch ended last Thursday, June 11, in 
New Mexico. Agent Mordan volunteered to serve and protect our 
Nation's border. While most of America was shut down and many 
in Government worked from home, Agent Mordan continued to be on 
the front lines with the many men and women of the DHS whose 
mission does not allow them to work from home. We are forever 
grateful to these men and women. I am grateful we can have this 
hearing today about the important topic of getting all of DHS 
back to work for the American people.
    DHS has over 200,000 employees tasked with protecting the 
American homeland. Although COVID-19 is a significant threat to 
the American people, the threat of terrorists, criminals, and 
others who wish us harm does not diminish simply because our 
focus may be elsewhere. Because terrorism does not take sick 
leave, it is essential DHS leadership maintains operational 
capabilities throughout this pandemic while striving to keep 
its employees healthy. Although many DHS employees perform 
duties that do not allow them to telework, for those that are 
able to telework, DHS quickly initiated telework policies to 
protect those employees.
    As part of the reopening of America, the Office of 
Management and Budget and the Office of Personnel Management 
issued guidelines based on information from the CDC for the 
heads of all Federal agencies to utilize in making decisions 
regarding returning employees to on-site work. Those guidelines 
allowed agency heads to exercise a great deal of discretion. It 
is my understanding that DHS has been developing plans for 
return to work that include a lot of flexibility for its work 
force and take into account underlying conditions as well as 
specific circumstances of employees.
    As DHS begins to transition back to normal operations 
around the country, the health and safety of the employees 
returning to on-site work is of the utmost importance. Given 
that many DHS employees continue to work at their duty 
stations, the Department should focus its plans on keeping all 
DHS employees, whether in the office or in the field, safe and 
healthy as we continue to battle COVID-19.
    As we move toward reopening facilities, it is important to 
realize that the health and safety of employees is intertwined 
with the health and safety of the American public that they 
serve. Employees at DHS must be protected from individuals with 
COVID, but also need to protect individuals visiting DHS 
facilities from being exposed to COVID. This will require 
proper screening tools for anyone entering the facilities or 
work sites, and adequate protective gear and barriers for both 
the employees and the individuals they serve.
    Some DHS employees, such as those at USCIS which operates 
on a fee-based model, are facing the real possibility of losing 
their jobs and income due to agency activities having been put 
on hold during the pandemic. Although it is important to keep 
people healthy by preventing exposure to COVID, we should keep 
in mind that health is also tied to having enough money to meet 
basic needs. The loss of jobs and businesses from the wide-
spread closures is a real public health threat that must also 
be addressed. Unemployment can lead to both physical and mental 
health issues. There is plenty of evidence for that already. We 
must get creative in addressing this shortfall as well.
    DHS needs to have a plan in place for addressing the needs 
of employees as well as the public. The plan must have 
sufficient flexibility built in to allow for modifications as 
information on containing the virus continues to evolve. I look 
forward to hearing from our witnesses today on the needs of the 
employees they represent and the steps DHS should take to 
protect them.
    While I am pleased to participate in this important hearing 
today, I would prefer we conduct ordinary hearings in person, 
and I want to be on the record saying that. There is no reason 
our small subcommittee cannot safely meet in our committee 
room, and I hope that is what we do next time, and I hope this 
is the last time we have this virtual hearing and look forward 
to working together to make that a reality.
    I yield back.
    [The statement of Ranking Member Crenshaw follows:]
                Statement of Ranking Member Dan Crenshaw
    Thank you, Chairwoman Torres Small.
    I want to start my statement by remembering and commemorating the 
life and service of Border Patrol Agent Johan Mordan. Agent Mordan's 
watch ended last Thursday, June 11 in New Mexico. Agent Mordan 
volunteered to serve and protect our Nation's border. While most of 
America was shut down and many in Government worked from home, Agent 
Mordan continued to be on the front lines with the many men and women 
of the Department of Homeland Security whose mission does not allow 
them to work from home. We are forever grateful to these men and women 
and I am grateful we can have this hearing today about the important 
topic of getting all of DHS back to work for the American people.
    DHS has over 200,000 employees tasked with protecting the American 
homeland. Although COVID-19 is a significant threat to the American 
people, the threat of terrorists, criminals, and others who wish us 
harm does not diminish simply because our focus may be elsewhere. 
Because terrorism does not take sick leave, it is essential DHS 
leadership maintains operational capabilities throughout this pandemic 
while striving to keep its employees healthy.
    Although many DHS employees perform duties that do not allow them 
to telework; for those that are able to telework, DHS quickly initiated 
telework policies to protect those employees.
    As part of the reopening of America, the Office of Management and 
Budget and the Office of Personnel Management issued guidelines based 
on information from the CDC for the heads of all Federal agencies to 
utilize in making decisions regarding returning employees to on-site 
work. Those guidelines allowed agency heads to exercise a great deal of 
discretion. It is my understanding that DHS has been developing plans 
for return to work that include a lot of flexibility for its workforce 
and take into account underlying conditions, as well as specific 
circumstances of employees.
    As DHS begins to transition back to normal operations around the 
country, the health and safety of the employees returning to on-site 
work is of the utmost importance. Given that many DHS employees 
continued to work at their duty stations, the Department should focus 
its plans on keeping all DHS employees, whether in the office or in the 
field, safe and healthy as we continue to battle COVID-19.
    As we move toward reopening facilities, it is important to realize 
that the health and safety of DHS employees is intertwined with the 
health and safety of the American public that they serve. The employees 
at DHS must be protected from individuals with COVID, but also need to 
protect individuals visiting DHS facilities from being exposed to 
COVID. This will require proper screening tools for anyone entering the 
facilities or worksites and adequate protective gear and barriers for 
both employees and the individuals they serve.
    Some DHS employees, such as those at USCIS, which operates on a 
fee-based model, are facing the real possibility of losing their jobs 
and income due to agency activities having been put on hold during the 
pandemic. Although it is important to keep people healthy by preventing 
exposure to COVID, we should keep in mind that health is also tied to 
having enough money to meet basic needs. The loss of jobs and 
businesses from the wide-spread closures is a real public health threat 
that also must be addressed. Unemployment can lead to both physical and 
mental health issues. We must get creative in addressing this shortfall 
as well.
    DHS needs to have a plan in place for addressing the needs of 
employees, as well as the public. The plan must have sufficient 
flexibility built in to allow for modifications as information on 
containing the virus continues to evolve. I look forward to hearing 
from our witnesses today on the needs of the employees they represent, 
and the steps DHS should take to protect them.
    While I am pleased to participate in this important hearing today, 
I would prefer we conduct OMA hearings in person. There's no reason our 
small subcommittee cannot safely meet in our committee room. I hope 
this is the last time we have a virtual hearing and look forward to 
working together to make that a reality.
    I yield back.

    Ms. Torres Small. Thank you, Ranking Member Crenshaw.
    With that, I will yield to the Ranking Member for the 
purpose of a colloquy.
    Mr. Crenshaw. Yes, the colloquy.
    Thank you, Madam Chairwoman. Could you please explain our 
agreement on committee procedures during these remote 
proceedings?
    Ms. Torres Small. I thank the Ranking Member. Let me begin 
by saying that standing House and committee rules and practice 
will continue to apply during remote proceedings. Members will 
be expected to continue to adhere to the rules of the committee 
and the House. During the covered period as designated by the 
Speaker, the committee will operate in accordance with House 
Resolution 965 and the subsequent guidance from the Rules 
Committee in a matter that respects the rights of all Members 
to participate. The technology we are utilizing today requires 
us to make some small modifications to ensure that the Members 
can fully participate in these proceedings.
    Mr. Crenshaw. Thank you, Madam Chairwoman. Could you 
elaborate on your plans for rehearsal sessions before remote 
proceedings?
    Ms. Torres Small. Thank you. Given these new circumstances, 
the committee plans to hold rehearsals before our first remote 
hearings and markups in the full committee or in the 
subcommittee, in furtherance of House rules and regulations. 
These rehearsals should help iron out technical issues and 
ensure that Members remain connected if they must change 
devices or locations.
    Mr. Crenshaw. Thank you, Madam Chairwoman. Could you 
elaborate on how Members may expect to be recognized during a 
remote proceeding?
    Ms. Torres Small. Thank you. First, to simplify an order of 
questioning, I will recognize Members for their 5-minute 
questioning based strictly on seniority basis as determined by 
our committee roster, a departure from our previous procedure. 
Members must be visible to the Chair in order to be considered 
as present for the purposes of establishing a quorum or for 
voting. Members should also make every effort to remain visible 
on the screen throughout the proceeding. If a Member 
experiences issues with their video stream, they may proceed 
with solely audio to ensure connection, provided they have been 
identified previously.
    At the beginning of this hearing, Members are on mute. 
Members may unmute themselves in order to be recognized for 
purposes of their 5-minute questioning of witnesses. At the 
conclusion of speaking, Members will be expected to then mute 
themselves to prevent excess background noise. If a Member does 
not mute themselves after speaking, the clerk has the directive 
to mute Members to avoid inadvertent background noise. Should a 
Member wish to be recognized to make a motion, they must unmute 
themselves and seek recognition at the appropriate time.
    Mr. Crenshaw. Thank you, Madam Chairwoman. What could a 
Member expect should they encounter technical issues during a 
remote event?
    Ms. Torres Small. In the event a Member encounters 
technical issues that prevent them from being recognized for 
their questioning, I will move to the next available Member of 
the same party, and I will recognize that Member at the 
appropriate time slot provided they have returned to the 
proceeding. Should a Member's time be interrupted by technical 
issues, I will recognize that Member at the next appropriate 
spot for the remainder of time once their issues have been 
resolved. If I should encounter technical issues myself, the 
Vice Chair of the committee, if available, or the next most 
senior Member of the Majority shall assume the duties of the 
Chair until I am able to return to the proceeding.
    Mr. Crenshaw. Thank you, Madam Chairwoman. What should 
Members expect regarding a decorum during a remote event?
    Ms. Torres Small. Thank you. Members are reminded that they 
are only allowed to attend one virtual event at a time. Should 
they need to attend another committee's proceedings, please 
fully exit the hearing before entering another proceeding. 
Finally, all Members are reminded that they are expected to 
observe standing rules of the committee decorum for appropriate 
attire and should have a professional and apolitical background 
when they are participating in any remote event.
    Mr. Crenshaw. Thank you, Madam Chairwoman. What should 
Members expect if a witness loses connectivity?
    Ms. Torres Small. Thank you. In the event a witness loses 
connectivity during testimony or questioning, I will preserve 
their time as staff address the technical issue. I may need to 
recess the proceedings to provide time for the witness to 
reconnect.
    Mr. Crenshaw. Thank you, Madam Chairwoman. Finally, what 
should Members expect if a vote is called during a remote 
event?
    Ms. Torres Small. Thank you. House Resolution 965 requires 
Members to be visible, present, to have their vote recorded 
during a remote event. Members who join the proceeding after a 
vote is called and who are not called upon for their vote 
should seek recognition from the Chair to ensure their vote is 
recorded. Should a Member lose connectivity during a roll call 
vote, I will hold the vote open for a period of time to address 
the technical issue and provide Members with an opportunity to 
have their vote recorded.
    Mr. Crenshaw. Thank you. I yield back.
    Ms. Torres Small. With that, I ask unanimous consent to 
waive committee rule 8(A)(2) during committee remote 
proceedings under the covered period designated by the Speaker 
under House Resolution 965.
    Without objection, so ordered.
    The Chair now recognizes the Chairman of the full 
committee, the gentleman from Mississippi, Mr. Thompson, for an 
opening statement.
    Mr. Thompson. Thank you, Chairwoman Torres Small and 
Ranking Member Crenshaw, for holding this hearing today. It is 
fitting we are here to discuss the Department of Homeland 
Security's efforts to resume operations. The fact that we are 
holding this hearing remotely demonstrates that we have all had 
to adapt to operate because of coronavirus pandemic.
    Many of our Nation's communities are still experiencing 
increased rates of COVID-19 infections and death. Even in areas 
where rates have improved, public health officials warn of 
future outbreaks if people do not continue smart practices. 
These include social distancing, wearing a mask or facial 
covering, and frequent hand washing. Yet the President refuses 
to do these things. Time and time again, we see him fail to 
take advice of medical professionals seriously.
    I fear that in his haste to reopen America ahead of 
doctors' advice, President Trump will try to force Federal 
workers back to their offices in an attempt to convince 
Americans it is safe to return to business as usual, but it is 
not safe. Pushing Federal workers to resume operations without 
taking measured precaution needlessly puts them at risk.
    This is especially true of DHS, whose work force is already 
in harm's way with 85 percent working on the front lines. 
Tragically, 2 of DHS's component agencies have some of the 
highest infection and deaths rates among Federal Government 
agencies. The Transportation Security Administration has 
announced that 667 employees have tested positive and 5 have 
died from COVID-19 on this website. Customs and Border 
Protection has publicly posted that 482 of its employees have 
tested positive and 5 have died.
    Therefore, it is critical that DHS have a plan in place to 
protect the health of its employees before reopening facilities 
or resuming operations. That plan should allow employees who 
have proven that they can do their jobs from home can continue 
to work from home. This is especially important in metropolitan 
areas such as Washington, DC, and New York City, where many 
workers rely on public transportation. If employees cannot work 
at home, DHS must take every precaution to keep them safe.
    That is why I supported TSA's request for supplemental 
appropriations of personal protective equipment, which was 
included in the CARES Act. I also join several of my colleagues 
on this subcommittee to co-sponsor H.R. 6655, the Hazardous 
Duty Pay for Frontline Federal Workers Act. This bill will 
create a separate pay category to compensate front-line 
workers, including TSA employees, for their increased risk of 
exposure to COVID-19 while on duty.
    I welcome and appreciate our witnesses for joining us 
today. I look forward to hearing their thoughts on how we can 
best support the Department's work force during these 
challenging times. I urge the administration to ensure all 
Federal agencies protect the health of America's public 
servants.
    I yield back, Madam Chair.
    [The statement of Chairman Thompson follows:]
                Statement of Chairman Bennie G. Thompson
                             June 16, 2020
    It is fitting we are here to discuss the Department of Homeland 
Security's (DHS) efforts to resume operations. The fact that we're 
holding this hearing remotely demonstrates that we have all had to 
adapt how we operate because of the coronavirus pandemic.
    Many of our Nation's communities are still experiencing increasing 
rates of COVID-19 infections and deaths. Even in areas where rates have 
improved, public health officials warn of future outbreaks if people do 
not continue smart practices. These include social distancing, wearing 
a mask or facial covering, and frequent hand washing. Yet, the 
President refuses to do these things.
    Time and time again, we see him fail to take the advice of medical 
professionals seriously. I fear that in his haste to reopen America 
ahead of doctors' advice, President Trump will try to force Federal 
workers back to their offices in an attempt to convince Americans it is 
safe to return to business-as-usual. But it is not safe. Pushing 
Federal workers to resume operations without taking measured 
precautions needlessly puts them at risk. This is especially true of 
DHS, whose workforce is already in harm's way, with 85 percent working 
on the front lines. Tragically, two of DHS's component agencies have 
some of the highest infection and death rates among Federal Government 
agencies.
    The Transportation Security Administration (TSA) has announced that 
667 employees have tested positive and 5 have died from COVID-19 on its 
website. Customs and Border Protection (CBP) has publicly posted that 
482 of its employees have tested positive and 5 have died.
    Therefore, it is critical that DHS have a plan in place to protect 
the health of its employees before re-opening facilities or resuming 
operations. That plan should allow employees who have proven they can 
do their jobs from home to continue to work from home. This is 
especially important in metropolitan areas, such as Washington, DC and 
New York City, where many workers rely on public transportation.
    If employees cannot work from home, DHS must take every precaution 
to keep them safe. That is why I supported TSA's request for 
supplemental appropriations for personal protective equipment, which 
was included in the CARES Act. I also joined several of my colleagues 
on this subcommittee to co-sponsor H.R. 6655, the ``Hazardous Duty Pay 
for Frontline Federal Workers Act.'' This bill would create a separate 
pay category to compensate front-line workers, including TSA employees, 
for their increased risk of exposure to COVID-19 while on duty.
    I welcome and appreciate our witnesses for joining us today. I look 
forward to hearing their thoughts on how we can best support the 
Department's workforce during these challenging times. And I urge the 
administration to ensure all Federal agencies protect the health of 
America's public servants.

    Ms. Torres Small. I now welcome our panel of witnesses and 
thank them for joining us today. Our first witness is Dr. 
Everett Kelley, national president of the American Federation 
of Government Employees, which is the largest union 
representing Federal employees Nation-wide. AFGE represents 
nearly 100,000 employees across DHS headquarters and several of 
its components, including the Transportation Security 
Administration, Customs and Border Protection, U.S. Citizenship 
and Immigration Services, and U.S. Coast Guard.
    I apologize that, unfortunately, we have lost the AFGE 
witness, and he is trying to reconnect. So I think we may--
let's see. We are trying to reconnect now. I will continue 
reading his bio, and if we are unable to get him by that point, 
we will take on this first challenge of a remote hearing. I 
think we are going to go ahead and move to our first--our 
second witness from NTEU. OK. I will read the AFGE--I will read 
Dr. Kelley's bio as well.
    Dr. Kelley has been a member of AFGE since 1981 and became 
national president in February 2020.
    Our second witness, Mr. Tony Reardon, serves as the 
national president of the National Treasury Employees Union. 
NTEU represents 150,000 Federal employees, including personnel 
at Customs and Border Protection and the Federal Law 
Enforcement Training Center, or FLETC. Mr. Reardon has been 
with NTEU for 30 years and was elected national president in 
August 2015.
    Our final witness, Mr. Brandon Judd, serves as the 
president of the National Border Patrol Council, which 
represents more than 16,500 Border Patrol agents. Mr. Judd is a 
Border Patrol agent with over 20 years experience and is 
currently assigned in Montana.
    Without objection, the witnesses' full statements will be 
inserted into the record.
    I now ask each witness to summarize his statement for 5 
minutes, and we are going to begin with Mr. Reardon. Please 
proceed.

 STATEMENT OF ANTHONY M. REARDON, NATIONAL PRESIDENT, NATIONAL 
                    TREASURY EMPLOYEES UNION

    Mr. Reardon. Chairwoman Torres Small and Ranking Member 
Crenshaw, thank you very much for the opportunity to testify on 
behalf of over 27,000 front-line Customs and Border Protection 
officers, agriculture specialists, and trade enforcement 
specialists at CBP. These men and women are stationed at 328 
air, sea, and land ports of entry and in preclearance 
operations overseas. They ensure the efficient processing of 
legitimate trade, travel, and asylum seekers who present 
themselves at the ports, and stop illicit trafficking of 
people, drugs, weapons, and money.
    Throughout the pandemic, most ports of entry remained open 
and staffed by CBP Office of Field Operations, or OFO, 
employees, 24 hours a day, 7 days a week, at great risk to 
their health and safety. The CBP work force, as of June 9, has 
more than 459 confirmed COVID-19 cases, according to CBP-wide 
figures, and many more employees in quarantine. Of these 
employees, 5, who have worked for OFO at the international 
ports of entry, have died after contracting COVID-19, so I want 
to honor these NTEU members by name.
    CBP technician Van Dong worked in agriculture secondary at 
Los Angeles International Airport. CBP Officer Richard McCoy 
worked at the Fort Lauderdale/Port Everglades port of entry in 
Florida. CBP Officer Omar Palmer, CBP Officer CK Yan, and field 
technology officer James Taylor, who all worked at John F. 
Kennedy International Airport. NTEU mourns the losses with the 
families and friends of these officers and appreciates their 
service to our country.
    In my written testimony, I have listed workplace safeguards 
that, absent the development of a successful vaccine, are 
needed at the international ports of entry. These safeguards 
include free on-site testing, contact tracing, increased work 
area cleaning, plexiglass barriers, sufficient PPE, and social 
distancing protocols.
    In addition to ensuring workplace safeguards, one of the 
most critical pandemic-related issues facing CBP employees at 
the ports of entry is the reduction in user fees collected due 
to the drastic drop in international commercial travel, and to 
a lesser extent, trade volume since March 2020. These user fees 
fund 40 percent of CBP OFO's budget, including 8,000 CBP 
officer positions. That is roughly one-third of the entire CBP 
work force at the ports of entry.
    Without supplemental appropriated funding to support these 
CBP officers between now and the end of fiscal year 2020, we 
are greatly concerned that this loss of user fee funding will 
result in furloughs at a time when this work force is most 
needed to facilitate the flow of legitimate travel and trade as 
the economy recovers.
    Recently, NTEU and 15 leading court leaders asked House and 
Senate appropriators to provide funding in either a DHS 
supplemental funding bill or in the next COVID recovery package 
to make up for user fees lost because of the pandemic and to 
help CBP respond effectively to the COVID-19 related challenges 
they must overcome now and in the future.
    It is our understanding that new trade and travel volume 
data collected by CBP shows a user fee funding shortfall of 
over $400 million in fiscal year 2020 and the need for over 
$1.5 billion through fiscal year 2021 to cover the user fee 
shortfall through the next fiscal year. This supplemental 
funding would help to ensure that current CBP officer staffing 
levels are maintained and that CBP does not lose the hiring and 
staffing advances that they finally started to gain after years 
of effort and much appreciated funding support by Congress as 
trade and traffic volumes increase.
    So NTEU implores you to support additional funding now so 
that CBP officers can stay on the job during the economic 
recovery. CBP employees at the ports of entry already face many 
challenges in the course of their work, and concerns about 
their health and safety or being furloughed as the country 
reopens for business should not be among them.
    Thank you very much, and I am happy to answer any questions 
that you may have.
    [The prepared statement of Mr. Reardon follows:]
                Prepared Statement of Anthony M. Reardon
                             June 16, 2020
    Chairwoman Torres Small, Ranking Member Crenshaw, and distinguished 
Members of the subcommittee, thank you for the opportunity to testify 
before you today. As national president of the National Treasury 
Employees Union (NTEU), I have the honor of leading a union that 
represents over 27,000 Customs and Border Protection (CBP) Office of 
Field Operations (OFO) employees, including CBP officers, agriculture 
specialists and trade enforcement personnel stationed at the 328 land, 
sea, and air ports of entry across the United States (U.S.) and 16 
PreClearance stations at airports in Ireland, the Caribbean, Canada, 
and the United Arab Emirates. CBP's OFO pursues a dual mission of 
safeguarding American ports, by protecting the public from dangerous 
people and materials, while enhancing the Nation's global and economic 
competitiveness by enabling legitimate trade and travel. CBP OFO 
employees are responsible for border security, including anti-
terrorism, immigration, anti-smuggling, trade compliance, and 
agriculture protection at U.S. ports of entry.
    I commend the committee for holding this hearing and closely 
monitoring the Department of Homeland Security's (DHS) plans for 
bringing more employees back to their worksites, their implementation 
of guidance, and how they are keeping employees safe. As more Federal 
agencies begin to call employees back to their workplaces, many 
employees have expressed a significant amount of anxiety and fear about 
their ability to return to work safely. Their fears are understandable 
as more than 2 million Americans have been infected with COVID-19 and 
more than 115,000 U.S. residents have already died from this virus.
    As coronavirus began to spread in the United States, the ports--
including airports and land border crossings--were fully staffed and 
personnel were interacting with international travelers, many of whom 
came directly from or had recently traveled to places where the virus 
was already being widely transmitted between individuals. As volume of 
travelers fell, CBP OFO began adjusting work schedules by providing 
some Weather and Safety Leave (WSL) for CBP Officers and Agriculture 
Specialists. These temporary CBP OFO work schedules allowed CBP port of 
entry employees to limit exposure to the virus and were the product of 
urgent discussions between employee representatives and management, 
with the twin goals of delivering the mission while promoting the 
health of these employees. Indeed, those two goals merge, because 
effective mission delivery is not possible without a healthy workforce.
    These temporary schedule adjustment agreements were reached in late 
March as the number of international travelers at airports fell by over 
90 percent and crossings at the northern and southern ports of entry 
dipped by as much as 75 percent. This allowed CBP to adjust schedules 
to limit the number of CBP personnel at ports while still meeting 
operational needs. It additionally allowed OFO personnel to more fully 
comply with Centers for Disease Control and Prevention (CDC) guidance 
to limit the spread of coronavirus by staying home, social distancing, 
and avoiding groups as much as possible. The agreements were a smart 
way for local port officials to protect their employees, follow public 
health recommendations and respond to the lower volumes of 
international travelers. Under the revised schedules, CBP employees who 
were on leave were subject to recall and ready to return to the port at 
a moment's notice, should the need arise.
    After initially permitting WSL at the Northern and Southwest Border 
land ports, to NTEU's great consternation, in early April CBP 
unilaterally canceled the use of WSL at the land ports. Therefore, for 
the most part, CBP officers at these land border crossings have 
continued to work throughout the last 3 months of the pandemic at great 
risk to their health and safety. The CBP workforce as of June 9 has 
more than 459 confirmed COVID-19 cases, according to CBP-wide figures, 
and many more employees in quarantine.
    Sadly, we have lost 5 officers who worked at the international 
ports of entry to COVID-19. I want to take a moment to honor these NTEU 
members by name: CBP Technician Van Dong worked in Agriculture 
Secondary at the Tom Bradley International Terminal, Los Angeles 
International Airport; CBP Officer Richard McCoy worked at the Fort 
Lauderdale/Port Everglades Port of Entry in Florida; and CBP Officer 
Omar Palmer, CBP Officer Ching Kok `CK' Yan, and Field Technology 
Officer James Taylor all worked at John F. Kennedy International 
Airport. NTEU mourns these losses with the family and friends of these 
officers and appreciates their dedicated service to our Nation.
    The pursuit of the safest possible working environment for CBP 
employees at all ports of entry, trade, enterprise services, and 
operations support facilities has been NTEU's paramount concern during 
the COVID-19 crisis. Throughout the pandemic, most international air, 
sea, and land ports of entry remained open and are staffed by CBP OFO 
employees 24 hours a day, 7 days a week, 365 days of the year. There 
are unique, on-going challenges to make sure health and safety 
precautions at all CBP worksites are comprehensive and effective. As 
international trade and travel struggles to return to normal, our CBP 
members deserve every possible safety precaution CBP can implement.
    NTEU is working with CBP to ensure the following safeguards:
  <bullet> On-site, free wide-spread COVID-19 and antibody tests for 
        CBP employees. To date, DHS has not provided on-site testing 
        and will not until there is a Government or DHS-wide policy. 
        NTEU also requested that CBP provide real-time notification of 
        positive cases among employees.
  <bullet> A contact tracing protocol that requires notification of CBP 
        OFO employees exposed to asymptomatic travelers who 
        subsequently test positive for the virus. NTEU is seeking a 
        less restrictive time exposure requirement. NTEU has concerns 
        that current DHS Guidance that CBP follows is insufficient to 
        precisely define the duration of time that constitutes a 
        prolonged exposure. Recommendations vary on the length of time 
        of exposure from 10 minutes or more to 30 minutes or more. 
        Brief interactions are less likely to result in transmission; 
        however, symptoms and the type of interaction (e.g., did the 
        person cough directly into the face of the individual) remain 
        important.
  <bullet> Increased cleaning of all terminals and work areas, 
        including shared vehicles, staggering lanes, and cleaning 
        booths between officer rotations, not just between shifts. CBP 
        has told us that staggering lanes and cleaning booths between 
        rotations is a ``best practice,'' but acknowledged that it may 
        be cost-prohibitive at some ports.
  <bullet> Plexiglass barriers on primary booths and in detention areas 
        and promoting social distancing where possible. CBP 
        acknowledged NTEU's concerns about limited space in soft-
        secondary areas which may prevent maintaining safe social 
        distances. They will do what they can to maintain such 
        distances, particularly to ensure that safe distances exist 
        between members of the public and officers working the counter.
  <bullet> Proper and sufficient Personnel Protective Equipment (PPE)--
        masks, gloves, sanitizer, and wipes--for all employees, 
        including agriculture specialists, and non-uniformed trade 
        personnel. To promote officer safety, CBP requires N95 masks be 
        worn in secondary when working in close proximity to others and 
        that surgical masks be worn in primary booths. NTEU also 
        strongly supports requirements for travelers to wear masks 
        while being processed in air, sea, and land port primary 
        booths.
  <bullet> Adequate notice of return to work and adjusted work schedule 
        policies to ensure appropriate physical distancing and 
        staggered shift arrivals and departures.
  <bullet> Maximize telework and other flexibilities, particularly for 
        employees with children whose schools or child-care facilities 
        are closed and those who rely on public transportation where 
        social distancing may not be possible to get to work.
  <bullet> Authorize telework or WSL for ``high-risk'' CBP employees 
        and for employees whose work is portable and are not assigned 
        to front-line work at the ports.
  <bullet> Allow WSL for quarantined and symptomatic employees who are 
        still able to work. CBP has resisted providing WSL to 
        symptomatic employees who are still working from home, saying 
        they must take sick leave.
  <bullet> Provide safety suits for CBP officers and agriculture 
        specialists entering confined spaces, such as ship holds.
  <bullet> Provide parking subsidies to reimburse employees who choose 
        to drive to work because of concerns with using public 
        transportation.
    In addition to Congressional support needed to ensure the above 
safeguards are in place and sustained at the ports of entry until an 
effective vaccine is made available, legislation is also needed to 
further support employees. NTEU applauds the House for passing last 
month a fourth coronavirus legislative relief package that includes 
NTEU-backed provisions supporting and protecting Federal employees 
during the pandemic. The Health and Economic Recovery Omnibus Emergency 
Solutions (HEROES) Act, H.R. 6800, includes several NTEU-supported 
provisions that would impact Federal employees, including:
  <bullet> Creating a HEROES Fund that would provide Federal employees 
        with additional premium pay of $13 per hour, up to a maximum 
        $10,000 for those whose basic pay is less than $200,000, for 
        either those who have regular or routine contact with the 
        public or those who must report to a worksite where social 
        distancing is not possible and other preventative measures are 
        not available;
  <bullet> Continued telework for all eligible Federal employees 
        throughout the pandemic, plus incentives for agencies to expand 
        their telework programs.
  <bullet> Allowing Federal first responders, including CBP officers, 
        to stay in their current law enforcement retirement plans even 
        if they are unable to meet the physical requirements of their 
        position due to exposure to coronavirus and are moved to other 
        civil service jobs.
  <bullet> A presumption that Federal employees who work with the 
        public and are diagnosed with COVID-19 contracted it in the 
        workplace, for workers' compensation purposes.
  <bullet> Eliminating out-of-pocket costs for COVID-19 treatment under 
        the Federal Employee Health Benefit Program.
  <bullet> Extending the emergency leave provisions in the Families 
        First Coronavirus Relief Act to all Federal employees.
    As Congress continues negotiations on legislation to respond to the 
impacts of the COVID-19 pandemic, we ask that you include additional 
language supporting Federal workers on the front lines who bear a 
significant share of the burden in responding to this crisis.
    Legislation is needed to address the need for expansion of carry-
over annual leave hours due to the inability of Federal workers to take 
annual leave during the pandemic. Under current law, carry-over hours 
are limited to 240. Many CBP families have canceled their scheduled 
vacations this year due to pandemic-related inability to travel, 
destination shutdowns, and required quarantines. We believe the earned 
annual leave of employees who are unable to take leave as they continue 
the important work of Government and adhere to stay-at-home orders 
should be protected beyond the 240-hour limit. NTEU supports Rep. 
Wexton's bill (H.R. 6733) to ensure at least front-line workers 
responding to the pandemic can carry over excess annual leave. We urge 
Congress to pass it and to extend this benefit to all Federal workers.
    While many CBP personnel would be eligible for additional pay from 
the Heroes Fund included in the HEROES Act if it were enacted, NTEU 
believes CBP employees and other Federal personnel should already be 
eligible to receive hazardous duty pay under existing law. Because of 
the nature of their jobs, many CBP employees have regular contact with 
the public and difficult to practice social distancing while working at 
the air, sea, and land ports of entry. According to the Schedule of Pay 
Differentials Authorized for Hazardous Duty Pay, one such hazard is: 
``Exposure to Hazardous Agents, work with or in close proximity to . . 
. (5) Virulent biologicals. Materials of micro-organic nature which 
when introduced into the body are likely to cause serious disease or 
fatality and for which protective devices do not afford complete 
protection.'' NTEU submits that COVID-19 exposure falls within this 
hazard, but to date, CBP has said that it does not, and has not paid 
either Hazardous Duty Pay or Environmental Differential Pay to those 
employees that are exposed to COVID-19 because of their work for CBP. 
NTEU urges Congress to pass a provision, like that in H.R. 6379, which 
would clarify that employees who have contact with the public and may 
be exposed to an individual who has or has been exposed to COVID-19 are 
eligible for this pay differential.
    Last, the Federal Law Enforcement Training Center (FLETC) has 
reopened on a limited basis. NTEU has been told that students will be 
screened upon returning, quarantined for 14 days prior to the 
commencement of formal class training, tested twice during the 
quarantine period, and be provided ample PPE. In addition, class sizes 
will be smaller and other additional new practices have been put in 
place to ensure social distancing. Nevertheless, we have concerns about 
staff and instructors leaving at the end of each day and the chance 
that they could then bring the virus into the classrooms. We have 
raised those concerns and now FLETC will be testing high-contact 
instructors (e.g. PT and Firearms) weekly.
                 fiscal year 2020 cbp budget shortfall
    One of the most critical pandemic-related issues facing CBP OFO is 
the reduction of user fee funding that is threatening Nation's economic 
recovery as international trade and travel struggles to return to 
normal. This budget shortfall is a result of the reduction in customs 
and immigration user fees collected due to the drastic drop in 
international commercial travel, and to a lesser extent, trade volume 
since March 2020. As you know, CBP collects fees under the Consolidated 
Omnibus Budget Reconciliation Act of 1985 (COBRA) and immigration 
inspection user fees to recover certain costs incurred for processing 
air and sea passengers and various private and commercial land, sea, 
air, and rail carriers and shipments. The source of these user fees are 
commercial vessels, commercial vehicles, rail cars, private aircraft, 
private vessels, air passengers, sea passengers, cruise vessel 
passengers, dutiable mail, customs brokers, and barge/bulk carriers.
    COBRA and immigration user fees together fund 40 percent of CBP's 
OFO budget, including 8,000 CBPO positions. That is roughly one-third 
of the entire CBP workforce at the ports of entry.
    Due to the COVID-19 pandemic, travel and trade volume has fallen 
precipitously resulting in a significant reduction in the amount of 
user fees collected and a massive user fee shortfall of several 
hundreds of million dollars for CBP in fiscal year 2020. CBP is 
projecting that they will spend all the fees they collect this year as 
well as any surplus from prior years before the end of fiscal year 
2020.
    Further, the agency anticipates low fee collections due to a 
continued diminishment of travel volumes into fiscal year 2021 due to 
the pandemic's continued disruption of fee generating commerce. The 
length and degree of disruption caused by the pandemic is still 
unknown. Without appropriated funding to support these CBP officers in 
fiscal year 2020, we are gravely concerned that this loss of user fee 
funding could result in furloughs at a time when trade and travel will 
be struggling to return to normal.
    U.S. businesses rely on the safe and efficient movement of goods 
and people across our borders and are all working to safely resume 
international travel and travel. Keeping current CBP officer staffing 
levels will be necessary to successfully transition into a more robust, 
safe, and delay-free travel environment and improve cargo movement. 
Also, CBP will likely lose the hiring and staffing advances that they 
finally started to gain, after years of effort and much appreciated 
funding support by Congress, which will negatively impact cross-border 
travel, passenger processing and trade facilitation in future years as 
the economy returns to normal.
    The critical issues that American businesses are facing to recover 
from this pandemic require quick, decisive action so that our 
Government can best facilitate the flow of travel and trade as the 
economy recovers. Without supplemental appropriated funding to support 
these CBP officers between now and the end of fiscal year 2020, we are 
gravely concerned that this loss of user fee funding will result in 
furloughs at a time when this workforce is most needed to facilitate 
the flow of legitimate travel and trade as the economy recovers. 
Recently, NTEU and 15 industry leaders, including air and seaport 
authorities, the Border Trade Alliance and the U.S. Chamber of 
Commerce, have asked House and Senate appropriators to provide funding 
in either a DHS supplemental funding bill or in the next COVID recovery 
package to make up for user fees lost because of the pandemic and to 
help CBP respond effectively to the COVID-19 related challenges it must 
overcome now and in the future. It is our understanding that new trade 
and travel volume data collected by CBP shows a shortfall of over $400 
million through fiscal year 2020 and a need for over $1.5 billion in 
fiscal year 2021 appropriations to cover user fee shortfall through the 
next fiscal year.
    This fiscal year 2020 CBP OFO supplemental funding request will 
help to ensure that current CBP officer staffing levels are maintained 
as trade and traffic volumes increase. NTEU implores you to seek 
additional funding now so that CBP officers can stay on the job during 
the economic recovery. CBP employees at the ports of entry already face 
many challenges in the course of their work and concerns about their 
health and safety or of being furloughed as the country reopens for 
business should not be among them.
    In closing, we all understand Federal workers' anxiety about their 
own safety during this pandemic as they work to keep our country safe. 
As leaders, it is important that we continue to do everything we can to 
mitigate the risks they face, and we need to encourage them to do so on 
an individual basis, for their own safety as well as their coworkers.
    We deeply appreciate your efforts to support and protect Federal 
employees throughout this crisis and encourage you to continue to 
provide strong oversight to help ensure the safety of all Federal 
employees in this unprecedented time.

    Ms. Torres Small. Thank you for your testimony.
    I now recognize Dr. Kelley to summarize his statement for 5 
minutes.

 STATEMENT OF EVERETT B. KELLEY, NATIONAL PRESIDENT, AMERICAN 
          FEDERATION OF GOVERNMENT EMPLOYEES, AFL-CIO

    Mr. Kelley. OK. Thank you so much.
    Chairwoman Torres Small, Chairman Thompson, Ranking Member 
Crenshaw, and Members of the subcommittee, my name is Everett 
Kelley, and I am the national president of American Federation 
of Government Employees. Thank you for the opportunity to 
testify today. However, I first of all want to recognize Border 
Patrol Agent Mordan who lost his life recently in the line of 
duty, and would like the privilege of taking 10 seconds of my 
allotted time just to think about him for a moment.
    [Moment of silence observed.]
    Mr. Kelley. Thank you so much. Just want to remember him 
and pray for his family.
    For those on the front line, the decision to reopen should 
be about preventing additional dangers to the health and safety 
of this vital work force. These are people who show up and do 
their jobs with their lives on the line, when the safety of 
their families is not ensured, even when they don't take 
practical steps to protect them.
    We are learning a lot about what it takes to beat the 
pandemic and provide protection until there is an effective 
vaccine or treatment, social distancing, wide-spread testing, 
contact tracing, and rapid response to new outbreaks. Without 
these, we don't want to experience repeated resurgence where 
thousands more will suffer and die. Every effort should be made 
to avoid this outcome, not only at DHS, but throughout the 
United States and the world.
    Resuming operations safely must be considered broadly, both 
in terms of what is safe for the public we serve and what is 
safe for the DHS employee and work force. If it only occurs 
when new cases and deaths rates are still increasing, we risk 
further infection among the great men and women who are working 
to keep our country safe.
    On April 20, OMB released its only guidelines--or guidance 
on reopening. The guidance was planned for a three-phase 
reopening based first on 14 days of declining case of COVID-19, 
adequate testing, and hospital capacity. It didn't call for 
provisions or personal protective equipment, but did indicate 
that agencies should not move from one thing to the next until 
work spaces were equipped with protective measures, such as 
high dividers and more frequent cleaning.
    The guidance indicated that, in the first phase, employees 
with vulnerable health conditions were to be provided telework 
or weather or safety leave. AFGE responded to OMB by setting 
forth 6 preconditions for reopening we believe should be met, 
emphasizing that the administration's efforts to promote 
reopening were premature and unwise. The preconditions outlined 
were universal testing, use of science-based standard for a 
safe return to work, equal treatment of the work force in 
implementing preventive measures making our workplace safe, 
including the provision of personal protective equipment, 
sending home symptomatic employees, and working with unions to 
battle this pandemic.
    To this last point, DHS employees on the front line and 
those who are teleworking are safer when the Department 
demonstrates a willingness to engage with the work force and 
their unions in order to gain their views, hear their concerns, 
and entertain their suggestions on how best to proceed in the 
context of the risk created by the pandemic.
    Time doesn't allow me or permit me to go into details about 
the experience our members have faced during this pandemic, but 
what I will tell you is FEMA employees still need FDA-approved 
PPE as hurricane season has started. Both passengers and TSOs 
must be required to wear masks, and TSOs need FDA-approved 
surgical masks to be provided by TSA.
    CIS employees need to stay on the job. They couldn't--they 
shouldn't, rather, be furloughed or RIF'd. Law enforcement 
officers need full retirement benefit if they become disabled 
and their families need support, and survivors, if they lose 
their lives during the COVID-19. And all of the front-line DHS 
work force need premium pay, automatic resumption of workplace 
illnesses, and the stringent application of workplace safety 
standard.
    Let me emphasize my point about CIS. This crisis looms 
immediately before us. I urge this committee to work with 
leadership and appropriations members to make sure that this 
threat of RIF and furloughs does not happen and CIS is provided 
funding in the next COVID administration passed by Congress.
    Although CIS is characterizing the layoff as furlough, 
their process in their layoff actions in accordance with work 
procedures. Such procedure requires that RIF notice to be 
issued to employees if the furlough may last more than 30 
calendar days. By using RIF notices rather than furlough 
notices, CIS can extend their layoffs up to 1 year. The bottom 
line is that CIS is placing employees in the status of being 
furloughed and potentially RIF'd at the same time.
    Now, such action to prevent these CIS furloughs or RIFs is 
extremely urgent, and I ask you to act on those. I thank you 
for the time that you have given me today. Thank you so very 
much.
    [The prepared statement of Mr. Kelley follows:]
                Prepared Statement of Everett B. Kelley
                             June 16, 2020
    Chairwoman Torres Small, Ranking Member Crenshaw, and Members of 
the subcommittee: My name is Everett Kelley, and I am the national 
president of the American Federation of Government Employees, AFL-CIO 
(AFGE). On behalf of the 700,000 Federal and District of Columbia 
employees represented by our union, I thank you for the opportunity to 
testify today on the subject of reopening the Department of Homeland 
Security (DHS) in a safe and responsible manner.
    AFGE represents employees in several DHS components, including 
Border Patrol, the Coast Guard, Immigration and Customs Enforcement 
(ICE), the Transportation Security Administration (TSA), the Federal 
Emergency Management Agency (FEMA), the Citizenship and Immigration 
Service (USCIS), and the Federal Marshalls Service. Employees in all of 
these components have been working bravely and courageously throughout 
the pandemic, most on the front lines at their regular duty stations, 
and many more who have been working remotely to carry out the mission 
of their agencies. In fact, we estimate that just 20 percent of the DHS 
employees we represent have been working remotely or have been on some 
kind of leave during this pandemic.
    Three months of data have produced a good amount of knowledge 
regarding what it takes to beat the pandemic and provide protection 
until there is either an effective vaccine or an effective treatment. 
First, there must be consistent and strict facilitation and enforcement 
of social distancing, and social distancing has to be in place for a 
period of sufficient length so that the number of infected people is 
reduced to a small fraction of the population. In addition to social 
distancing, we need testing, tracing, and the ability to isolate so new 
outbreaks can be identified and everyone who has been exposed can be 
quarantined. A premature end of social distancing, a failure to follow 
through with testing, contact tracing, and isolation is a guarantee of 
resurgence and a guarantee that thousands more will suffer and die. 
Every effort should be made to avoid this outcome, not only for DHS but 
throughout the United States and the world.
    We do not have firm data on the number of DHS employees who have 
contracted the virus and we do not know how many DHS employees have 
died from COVID-19. TSA reports that infections among its workforce 
number 667 and 5 TSA employees and 1 TSA contractor have died from the 
virus. TSA also reports that over the past 2 weeks, 19 airports have 
reported the existence of new infections.
    We do not have data on infections or deaths from the other DHS 
components, but it is reasonable to believe that there are large 
numbers of infections. And of course, one infected individual is likely 
to have transmitted the virus to others so the number of DHS-related 
cases will be larger than reported infections.
    As such, ``Resuming Operations Safely'' must be considered broadly, 
both in terms of what is safe for the public we serve and what is safe 
for the DHS workforce. In each case, it would be wrong to rush into 
reopening because no matter how scrupulously safety protocols might be 
followed, if DHS components resume operations that have been closed in 
order to mitigate the spread of COVID-19 when the virus is still 
spreading, when new cases and death rates are still increasing, it will 
have been too soon.
                     omb guidance and afge response
    On April 20, the Office of Management and Budget (OMB) released the 
only Government-wide guidance to date on reopening. Importantly, even 
OMB said that its phased reopening should not proceed until 3 important 
criteria were met: 14 days of declining numbers of reports of flu and 
COVID-19 symptoms, 14 days of declining confirmed cases of COVID-19 or 
14 days of a declining percentage of positive tests, assuming a steady 
or rising number of tests, and third, the existence of adequate 
capacity at local hospitals to treat all cases of COVID-19 without 
having to resort to crisis triage and the availability of robust 
testing of health care workers.
    In addition to these criteria for entering the first phase of 
reopening, OMB emphasized that Federal agencies would have broad 
discretion to reopen on their own terms, and that reopening should 
occur on a local and regional basis.
    No reopening was to occur until the OMB criteria had been met, and 
reopening was to occur when the criteria had been met on a regional 
basis.
    There were to be 3 phases of reopening. During the first phase, 
maximum telework would continue, return to work sites would be 
staggered by hours and/or by days, managers were ``encouraged'' to 
continue to approve weather and safety leave for those are not 
telework-eligible or are in Centers for Disease Control and Prevention 
(CDC) identified categories of ``most vulnerable.'' This last includes 
people over the age 65 and ``people of all ages with underlying medical 
conditions, particularly if not well controlled, including:
  <bullet> People with chronic lung disease or moderate to severe 
        asthma
  <bullet> People who have serious heart conditions
  <bullet> People who are immunocompromised
  <bullet> Many conditions can cause a person to be immunocompromised, 
        including cancer treatment, smoking, bone marrow or organ 
        transplantation, immune deficiencies, poorly controlled HIV or 
        AIDS, and prolonged use of corticosteroids and other immune-
        weakening medications
  <bullet> People with severe obesity (body mass index [BMI] of 40 or 
        higher)
  <bullet> People with diabetes
  <bullet> People with chronic kidney disease undergoing dialysis
  <bullet> People with liver disease.
    During phase one, employees ``may'' wear face coverings at work; 
they are not required, and they would not be supplied by the employer. 
``Customer-facing'' operations are to put in place entry protocols like 
visual and temperature checks, and agencies are supposed to have 
adequate supplies of disinfectant, hand sanitizer, paper towels, soap, 
and hot water. Buildings are supposed to be cleaned more frequently 
than usual and efforts are to be made to facilitate social distancing 
at work. Case-by-case accommodations for employees are supposed to be 
made. The second phase would be entered when all the criteria for entry 
into phase one continue to be met, but agencies are supposed to take 
steps to alter office and work sites to prevent the spread of the virus 
such as building higher walls on cubicles and changing the 
configuration of ``public use'' areas of work sites such as locations 
where copiers and supplies are stored and utilized. Maximum telework 
should be continued. Again, accommodations for particular employees are 
supposed to be made on a case-by-case basis.
    Phase three as discussed in the OMB memorandum is supposed to be 
entered when all the phase one criteria continue to be met. Phase three 
includes a return to pre-pandemic rules for telework, with face 
coverings and social distancing optional. Accommodations for 
individuals would be permitted, again on a case-by-case basis.
    I responded to the OMB guidance with a letter to Acting Director 
Voughton April 22. I have received no response to this letter. My 
response set forth 6 preconditions for reopening that AFGE members 
believe should be met prior to reopening. I emphasized my view that the 
administration's efforts to promote reopening were premature and 
imprudent. It is now almost 9 weeks later and in States that reopened 
too early such as Texas and Florida, the data are showing a resurgence 
of the pandemic. We are not seeing, however, a reversion to ``stay at 
home'' directives that are supposed to precede any reopening.
    In my letter on behalf of AFGE members, I called for the following:
    1. Universal testing for COVID-19 because we cannot assess 
        correctly the risk of transmission until we know the extent of 
        infection. I argued that only with universal testing will it be 
        possible to implement prudent policies for the use of public 
        transportation, for social distancing inside Federal offices 
        and other work sites, and other appropriate precautions, 
        especially those that involve direct interaction with the 
        general public.
    2. Science-based standards for the safe return to work because the 
        administration has politicized its response to the pandemic 
        from the earliest days, at first denying its existence, later 
        minimizing its severity, and then rushing to reopen even while 
        cases are increasing, when effective treatment does not exist, 
        and a vaccine is still months or even more than a year away. 
        Based on our own research, we follow the recommendations of 
        epidemiologists and other public health experts who cite 14 
        days of exponential decline in new cases within a region before 
        easing quarantine and shelter-at-home restrictions. With regard 
        to the definition of a local area, we urged Federal employers, 
        including DHS, to use the areas defined in the General Schedule 
        locality pay system. For areas within the ``Rest of US'' 
        locality, regions should be defined by Census data on commuting 
        used to describe Combined Statistical Areas or Metropolitan 
        Statistical Areas.
    3. Treat all workers equally, because no one is low-risk, tens of 
        thousands have died who were young and healthy before 
        contracting the virus. We also urged full accommodation be 
        provided to anyone who needs measures to ensure that 
        individual's safety and health.
    4. Federal workplaces must be safe workplaces, because we want to 
        be certain not only that no one contracts the virus at work; we 
        want Federal employees to know that they will not be bringing 
        the virus home with them after work. We asked that all Federal 
        work sites be supplied with items that help minimize the spread 
        of infection such as employer-supplied FFDA-approved masks and 
        other PPE, hand sanitizer, facilities for hand washing 
        including soap and hot water, tissues, interior infrastructure 
        that meets safety and health standards to allow proper 
        distancing, dividers, regular disinfecting of work spaces, and 
        areas for isolation, and filtering systems for air circulation. 
        We asked that Federal work sites be fully OSHA-compliant and 
        operated within CDC guidelines, even as OSHA has failed to 
        issue any emergency standards to protect workers from COVID-19.
    5. Symptomatic employees be sent home on leave because in order to 
        protect workers at the work site, employees or on-site 
        contractors who develop a COVID-19 infection, or who display 
        any symptom known to be related to COVID-19 must be removed 
        from the workplace immediately and all remaining employees must 
        be notified immediately. We further urged that contact tracing 
        be employed and all those who report contact with the 
        symptomatic employee must be removed from the workplace as well 
        and permitted either to work remotely or receive weather and 
        safety leave for a minimum of 14 days.
    6. Last but certainly not least, we reminded Mr. Vought that all 
        agencies must comply with their obligations with their union. 
        In DHS, like other agencies, there has been much variation 
        among the components regarding willingness to engage with 
        front-line employees in order to gain their views, hear their 
        concerns, or entertain their suggestions for how best to 
        proceed in the context of the risks created by the pandemic.
    The DHS Chief Human Capital Officer has had weekly calls with union 
representatives to keep us apprised of the agency's overall plans, but 
as useful and constructive as these conversations have been, they are 
no substitute for real cooperation and dialog on a local level. Reports 
from the AFGE bargaining councils representing employees of DHS's 
various components indicate that they have not responded to demands to 
bargain over the return to work.
                    dhs components' response so far
    AFGE's FEMA Council reports that its top priority is that testing 
becomes available for all employees prior to return to work. As 
hurricane season approaches, it is important to recognize that FEMA 
employees will be traveling from all over the country, from different 
States with vastly different levels of infection, social distancing 
rules, and use of PPE. They are concerned not only that they might be 
bringing infection with them, but they also believe that without 
universal testing they will be at risk of contracting the virus from 
others. Further, FEMA employees report that the agency has been 
promising to provide masks to employees for more than a month and so 
far, employees have received no masks. Cloth masks will, however, be 
entirely inadequate to protect FEMA employees.
    FEMA employees, like all other DHS employees, need FDA-approved 
surgical masks to help prevent them from transmitting the virus and to 
protect them from others who may be emitting droplets or particles that 
contain the virus. Notably, the Occupational Safety and Health 
Administration (OSHA) published information last week that said, 
regarding cloth face masks, that they ``are not considered personal 
protective equipment (PPE)'' and they will ``not protect the wearer 
against airborne transmissible infectious agents due to loose fit and 
lack of seal or inadequate filtration.'' (https://www.osha.gov/SLTC/
covid-19/covid-19-faq.html). As such, we are asking that adequate 
supplies of FDA-approved masks, not cloth masks, be provided to all DHS 
employees returning to or continuing to work at their regular duty 
stations.
                   uscis and the threat of furloughs
    What could be worse than a return to work that is poorly planned 
and inexpertly executed? No return at all. We received notice that as 
many as 13,400 of the agency's 18,700 employees (71.7 percent) would be 
furloughed beginning August 3, 2020 if USCIS does not receive an 
emergency supplemental appropriation from Congress. The agency claims 
that a reduction in fee revenue caused at least in part by the COVID-19 
pandemic is the rationale for these threatened furloughs.
    We urge you in the strongest possible terms to take action to 
provide funds to USCIS specifically to prevent furloughs and keep the 
agency functioning. Furloughs of this magnitude would make it entirely 
impossible for the agency to carry out more than a tiny fraction of its 
mission. With a loss of nearly three-fourths of its workforce, work, 
student and visitor visa petitions, asylum and citizenship/
naturalization applications, green cards, and refugee applications will 
not be processed. Please note that USCIS facilitates lawful 
immigration, it helps law-abiding immigrants attain a legal status as 
permanent residents and when and if they meet all legal criteria, 
eventually become U.S. citizens.
    USCIS has worked with House and Senate Appropriations staff to 
identify the need for an emergency supplemental appropriation of $1.2 
billion to prevent these furloughs. The agency would use $571 million 
to fund the jobs for the remainder of the current fiscal year and would 
use the additional $650 million for the start of fiscal year 2021. The 
$1.2 billion would compensate the agency solely for the amount already 
budgeted for operational needs and to allow it to continue to meet 
payroll for the 13,400 Federal employees currently under threat of 
furlough. We recognize the enormous economic pain that the COVID-19 
pandemic has caused throughout our Nation and the world. But the United 
States should not and need not discontinue its capacity for 
administering legal immigration processes. But without this 
supplemental appropriation, that is exactly what will happen.
    Please also recall that the employees of USCIS, 14,500 of whom are 
in AFGE bargaining units, are middle-class Americans who live and work 
in communities all across the Nation. They take great pride in the work 
they do on behalf of DHS and the mission of their agency. They earn 
modest salaries in return for public service. These furloughs would 
completely destroy their ability to support themselves and their 
families and worsen the already precarious economic situation of their 
communities.
    Although we have asked USCIS to share with us the specifics of how 
and why they came to need the $1.2 billion and how exactly they would 
spend the money once it is appropriated, they have declined, to date, 
to share this information. One verbal response indicated that a 
substantial portion of the requested funds would be devoted to paying 
contractors. We want to make sure that if the supplemental 
appropriation is granted, that it be conditioned on it being spent at 
least in part to ensure that there be no furloughs of any of USCIS's 
Federal employees. The emergency appropriation supplement should not be 
granted if the agency intends to use the money solely or even primarily 
to pay contractors and proceed with its plan to furlough its own 
workforce. Thus, we urge you to require USCIS to forgo furloughing any 
of its own workforce as a condition of receiving the supplemental 
appropriation it has requested.
 legislative measures to protect the dhs workforce from the impact of 
                                covid-19
    AFGE strongly supports the provisions of the HEROES Act that would 
affect Federal employees. In particular we support the extension of 
paid emergency sick leave and partially-paid emergency leave under the 
Family Medical Leave act to first responders. We also strongly support 
the HEROES Act's provision of a $13 per-hour pay differential for 
front-line employees which would benefit the almost 80 percent of DHS 
employees who, by virtue of their duties, were required to continue 
working at their regular duty station throughout the pandemic.
    The HEROES Act also created a presumption of workplace illness for 
COVID-19 so that Federal employees who are working on the front lines 
and contract the virus during the pandemic will be eligible for Federal 
workers' compensation benefits without having to prove that they 
contracted the disease atwork. The HEROES Act also includes a provision 
that would allow certain law enforcement officers (LEOs) to retire and 
retain LEO retirement eligibility if they contract COVID and are unable 
to fulfill the duties of their jobs but are employed in other Federal 
work.
    There are several additional measures that were not included in the 
HEROES Act that we urge Congress to enact in subsequent legislation. We 
ask that Congress intervene to allow Federal employees who are not 
currently enrolled in a Federal Employees Health Benefits Program 
(FEHBP) health plan the opportunity to purchase and join the program 
during this public health emergency. This provision is especially 
necessary for the part-time work force at TSA. Up until this year, TSA 
provided a full employer subsidy for its large part-time workforce. In 
2019, the TSA administrator announced abruptly that the agency would 
end this practice, cutting compensation for this already poorly-paid 
work force and making health insurance coverage unaffordable for them 
and their families.
    Transportation Security Officers are also under a separate and 
unequal personnel management system that provides no due process in the 
work place and no ability to appeal to an independent arbitrator. This 
has been a problem since the inception of TSA 18 years ago, but the 
pandemic sheds a new light on the unfairness of lacking basic work 
place rights, whistle-blower protections and a voice to protect jobs 
and lives. This committee, through the leadership of Chairman Thompson 
led the full House to pass H.R. 1140, the ``Rights for Transportation 
Security Officers Act'' in March. This bill should be a part of COVID 
response legislation and considered in the process of reopening DHS.
    Many DHS employees likely had approved annual leave denied or 
canceled because they were required to work because of the exigencies 
of the pandemic; it is unclear whether they will be permitted to 
reschedule this leave because the pandemic's future remains uncertain. 
These employees face the possibility of having to forfeit unused annual 
leave unless Congress intervenes to permit additional carry-over 
(higher maximum ceilings) of leave due to COVID-19. A similar problem 
could arise due to employees' illness rendering them unable to use 
annual leave. Thus, we ask that future COVID-19-related legislation 
include permission for increased carry-over of unused annual leave for 
front-line employees who are unable to use their leave for reasons 
directly related to leave having been denied due to scheduling issues 
connected to the pandemic.
                   collective bargaining and covid-19
    The eventual return to work for DHS employees, regardless of which 
component of the agency they work for and regardless of the standards 
by which component management makes its decisions, will require 
collective bargaining with the affected employees. Notice to employees 
of impending changes in practices and procedures regarding numerous 
issues ranging from work place health and safety to PPE to issues 
surrounding transportation to and from work, telework, scheduling of 
work, accommodations of pre-existing health conditions or new risks 
arising from COVID-19, issues arising out of work-related travel, 
performance, training, leave, and privacy concerns with regard to 
contact tracing are but a few of the issues that agencies will be asked 
to bargain over with AFGE.
    Throughout the pandemic, at agencies throughout the Government, 
AFGE has asked management to restore labor-management committees so 
that front-line workers can be made aware of new information affecting 
their work and their agency's operations, and management can benefit 
from the insight and experiences of those carrying out the agency's 
mission. In most if not all cases, the administration's formal 
hostility to recognizing the value of cooperative labor-management 
relations has won out over the common-sense notion of working together 
to promote the best interests of the agency and its workforce. We ask 
the committee to use its authority to try to persuade the agencies to 
set aside the anti-union, anti-collective bargaining stance that the 
administration has advocated in order to make the return to normal 
operations, when it occurs, as safe as possible for both the DHS 
workforce and the American public we serve.
                               conclusion
    One of the worst tragedies associated with this pandemic is that 
now that we have sufficient knowledge of what is necessary to stop the 
spread of the disease, it is likely that the Federal Government will 
move forward with reopening too soon. As a consequence, instead of 
stopping the spread of COVID-19, the Government itself will contribute 
to the continuation and possible worsening of the pandemic. The vast 
majority of DHS's workforce are front-line, ``essential'' employees who 
have been at their regular-duty stations throughout the pandemic. 
Taking the necessary steps to protect them--universal testing, strict 
social distancing, provision of adequate Personal Protective 
Equipment--might at one point have been impossible due to insufficient 
supplies. But today there is no excuse.
    There should be no re-opening unless and until it is genuinely safe 
to return. There should be no re-opening unless and until DHS and other 
Federal agencies have the full capacity to test, protect, trace, and 
inform their workforces, and unless and until genuine, objective data 
on the status of the pandemic shows it has subsided.

    Ms. Torres Small. Thank you for your testimony.
    As I recognize Mr. Judd to summarize his statement for 5 
minutes, please allow me to add to the condolences and extend 
my own very personal ones because of the work that Agent Mordan 
did in my district and the hard work that is called upon for 
Border Patrol agents. Thank you for your presence here today, 
thank you for your representation of them, and my deepest 
condolences to the family as well and gratitude for their work.

STATEMENT OF BRANDON JUDD, NATIONAL PRESIDENT, NATIONAL BORDER 
                         PATROL COUNCIL

    Mr. Judd. I would like to start by thanking both 
Congressman Crenshaw and Congresswoman Torres Small for 
extending that heartfelt condolences to the family of Agent 
Mordan. This was a great individual who was working to protect 
his country when he passed away. Unfortunately, we have buried 
way too many Border Patrol agents who have been out trying to 
do the best that they can to protect this Nation.
    I want to thank you for having this hearing, both 
Congresswoman Torres Small and Congressman Crenshaw. As you 
already said, the NBPC represents 14,500 rank-and-file agents 
of the Border Patrol. On behalf of these men and women, I would 
like to thank you for having this hearing.
    During this time of great civil unrest, I would be remiss--
because I am a uniformed law enforcement officer, I would be 
remiss if I did not recognize the situation surrounding George 
Floyd. I was thoroughly disgusted to see video of Officer 
Chauvin with his knee on George Floyd's neck. I was even more 
disgusted when I watched as Officer Chauvin failed to show the 
slightest modicum of human decency as Mr. Floyd begged for his 
life. I was mortified that a person who was supposed to be the 
good guy was worse than the criminals law enforcement officers 
come in contact with on a daily basis. Officer Chauvin's 
actions can never be repeated, but just as important, the men 
and women in law enforcement must understand and believe that 
we are not above the law, and we all must believe that racism 
has no place in society, especially in law enforcement.
    With that being said, it would be absolutely unfair to 
paint a picture of all law enforcement simply because of what 
one man did. That individual must be held accountable. All law 
enforcement also must look at this, learn, and try to do 
better.
    I would like to address the topic of this hearing. Border 
security has gone completely uninterrupted during this 
pandemic, and I want to thank DHS for doing all that they can 
to make that happen. While the men and women of the Border 
Patrol are no strangers to dealing with extraordinary 
circumstances, including communicable diseases, in their 
everyday jobs, the COVID-19 pandemic has created unique 
challenges. I am proud to say Border Patrol agents across the 
country have risen to the occasion to protect our borders, even 
in the face of unprecedented circumstances, but we could not do 
it alone.
    After nearly 23 years in the Border Patrol, I can 
emphatically say that without the support of this 
administration, we would not succeed, and President Trump's 
quick action to initiate Title 42 authorities has driven 
illegal immigration numbers to the lowest levels in my career. 
This has allowed us to detect and apprehend the vast majority 
of those that have entered our country illegally over the past 
few months, and it has undoubtedly prevented additional cases 
of COVID-19 from coming to U.S. communities.
    As you are undoubtedly aware, and as I previously stated, 
since the onset of COVID-19 pandemic, the Border Patrol has 
generally fared well along the Southwest Border from a border 
security's perspective. Additionally, from a health and safety 
perspective, we have also generally fared well and have been 
incredibly fortunate that the number of COVID-19 cases among 
agents has thus far been low. The men and women of the Border 
Patrol have been able to continue border security missions 
while also protecting our agents with little to no disruptions.
    With the Border Patrol as an example, I believe the Federal 
Government can operate at high levels while also managing the 
spread of COVID-19. As a microcosm, I think that we can look at 
the Border Patrol and we can say, because of all of the 
different ways that we patrol the border, we are also in office 
settings. We are in the field. We deal with individuals that 
come in the most dire of circumstances. They are held in stash 
houses, in locations that have diseases that run rampant. Yet 
because of the actions that have been taken, the simple, little 
actions that do not cost money, the Border Patrol has been able 
to continue to operate. I believe that in office settings, the 
Federal Government can also continue to operate and exceed the 
levels of service that the U.S. citizens require and expect of 
the Federal Government.
    There are certain concerns that we have that we need to 
address. The need for additional space is going to be critical. 
Even if Border Patrol continues to expel illegal immigrants 
under Title 42, the size of a potential surge of the country of 
origin of illegal immigrants, the willingness of countries to 
take their own citizens, and the health status of the 
individuals we apprehend are all factors that are going to 
drive the need for more capacity. Catch and release in a 
pandemic is simply not an option.
    We have had good success processing detainees in the field. 
This is one of the reasons I believe we have kept our COVID-19 
infections low. By processing in the field, we are not exposing 
an entire Border Patrol station to a potential infected 
individual.
    One limiting factor is internet connection. Without proper 
connection, we cannot conduct criminal background checks and 
enter biometric data on the detainees. As you know, internet 
connectivity is spotty at best along the border. However, with 
the military technology available, it could give us this 
connection, and it is my understanding that it can be done at 
minimal cost.
    Border Patrol currently does not have any testing capacity 
for agents. Instead, we must rely on local medical facilities, 
which in border communities are already overstretched. Given 
that COVID-19 will remain a threat until a vaccine is 
developed, Border Patrol leadership needs either develop this 
capacity in-house or contract out the function, the most 
effective method available.
    Ms. Torres Small. Mr. Judd, I apologize. Your time has 
expired. If you wouldn't mind just wrapping up.
    Mr. Judd. Absolutely.
    There are many things that can be done in the Federal 
Government that don't cost the taxpayer money that will allow 
us to continue to operate as the Federal Government.
    I appreciate your time and look forward to answering any of 
your questions.
    [The prepared statement of Mr. Judd follows:]
                   Prepared Statement of Brandon Judd
                         Tuesday, June 16, 2020
    Chairwoman Torres Small and Ranking Member Crenshaw, my name is 
Brandon Judd and I am the president of the National Border Patrol 
Council (NBPC). The NBPC represents the 14,500 rank-and-file field 
agents in the Border Patrol. On behalf of these men and women, I would 
like to thank you for both having this important hearing on how we can 
safely operate in a COVID-19 environment and for being such stalwart 
supporters of the men and women of the Border Patrol.
    During this time of great civil unrest, and because I am a 
uniformed law enforcement officer, I would be remiss if I did not 
address the senseless murder of George Floyd.
    I was thoroughly disgusted to see the video of Officer Chauvin with 
his knee on George Floyd's neck. I was even more disgusted when I 
watched as Officer Chauvin failed to show the slightest modicum of 
human decency as Mr. Floyd begged for his life. I was mortified that a 
person who was supposed to be the ``good guy'' was worse than the 
criminals law enforcement officers come in contact with on a daily 
basis. Officer Chauvin's actions can never be repeated, but just as 
important, the men and women in law enforcement must understand and 
believe that they are not above the law; and we all must believe that 
racism has no place in society, especially in law enforcement.
    I hope you will judge me by my actions and not my words.
    Throughout my career, and as the head of the NBPC, I have 
personally led the charge for accountability in the Border Patrol. Last 
Congress, I worked with Senator Kamala Harris' staff on Body Worn 
Camera legislation. Well before ProPublica exposed the reprehensible 
Facebook postings by Border Patrol agents, I notified career Border 
Patrol managers at the highest levels of the inappropriate and 
unprofessional content that was being posted. I've filed numerous 
reports of misconduct, including one report of a high-level manager 
ordering his agents to target individuals of Muslim decent, regardless 
of whether or not they were U.S. citizens. Thankfully, not one rank-
and-file agent, that I know of, followed through on the career 
supervisor's order. I've also helped other Border Patrol agents file 
reports of misconduct that they witnessed in the workplace.
    I have been entrusted to enforce the immigration laws of the United 
States. This charge is a great responsibility and it should mean that I 
am more accountable to the law and certainly not above it. No law 
enforcement officer is above the law and thankfully, the vast majority 
of my colleagues believe the same. We believe those officers that would 
put themselves above the law like Officer Chauvin, have no place in law 
enforcement and I will re-emphasize that racism has absolutely no place 
in society, especially in law enforcement.
    In light of the aforementioned, I hope you will judge my testimony 
accordingly.
                     border security uninterrupted
    While the men and women of the Border Patrol are no strangers to 
dealing with extraordinary circumstances, including communicable 
diseases, in their everyday jobs, the COVID-19 pandemic has created 
unique challenges and I am proud to say that Border Patrol agents 
across the country have risen to the occasion to protect our borders 
even in the face of unprecedented circumstances. But we could not do it 
alone.
    After nearly 23 years in the Border Patrol, I can emphatically say 
that without the support of this administration we would not succeed, 
and President Trump's quick action to initiate Title 42 authorities has 
driven illegal immigration numbers to the lowest levels in my career. 
This has allowed us to detect and apprehend the vast majority of those 
that have entered our country illegally over the past few months and it 
has undoubtedly prevented additional cases of COVID-19 from coming to 
U.S. communities.
    I also want to highlight the dedication to the border security 
mission exhibited by members of the National Border Patrol Council 
during this pandemic. For the first 2 months of the pandemic, members 
of the National Border Patrol Council who are designated to be on 100 
percent official time, voluntarily took themselves off of official time 
and returned to their regular duty assignments in the field. To my 
knowledge, we are the only Federal employee union in the Nation that 
took this action.
    As you are undoubtedly aware and as I previously stated, since the 
onset of the COVID-19 pandemic, the Border Patrol has generally fared 
well along the Southwest Border from a border security perspective. 
Additionally, from a health and safety perspective, we have also 
generally fared well and have been incredibly fortunate that the number 
of COVID-19 cases among agents has thus far been low. The men and women 
of the Border Patrol have been able to continue our border security 
mission while also protecting our agents with little to no disruptions. 
With the Border Patrol as an example, I believe the Federal Government 
can operate at high levels while also managing the spread of COVID-19.
                        preparing for the worst
    While the border security and public health picture amongst agents 
is currently positive overall, I want to implore the subcommittee not 
to assume that everything will be ``just fine'' going forward. I am 
hopeful that the situation along the Southwest Border will remain as it 
is but I am deeply concerned that due to the uncertain and complex 
nature of COVID-19, the situation along the border could spiral out of 
control and turn dangerous and deadly soon; and it could happen with 
little to no warning. The evolving and ever-changing scientific, public 
health, and economic landscape of this pandemic has made forecasting 
what comes next nearly impossible--even for our Nation's top experts. 
This uncertainty leaves the Border Patrol with only one option--to hope 
for the best and prepare for the worst. Now is the time to plan and 
prepare for the worst-case scenarios.
    Unfortunately, there is a long history of Border Patrol leadership 
not leading and not preparing for what lies ahead. In fact, whether it 
was the 2014 Unaccompanied Alien Children (UAC) crisis or the 2019 
surge that we just experienced this past summer, recent history has 
shown that the agency rarely has contingencies for worst-case scenarios 
and is ill-prepared to deal with crises along the border.
    I am deeply concerned that Border Patrol leadership is again not 
taking adequate steps now to prepare for what could very likely come 
our way in the near future. Whether it's the draw of our economic 
recovery or the downturn of the Mexican economy; an overwhelmed health 
care system in Mexico due to a COVID-19 outbreak among Mexican 
communities or the draw of excess hospital capacity in the United 
States; there are many plausible scenarios that could lead to a massive 
surge in illegal immigration and a resulting crisis along our Southwest 
Border.
    As I just stated, now is the time to plan and prepare for the 
worst-case scenarios. If we keep operating under the same model, I am 
afraid that we will sadly once again fail to protect our citizens, 
employees, and individuals crossing our border. And with the grim 
realities of COVID-19, the consequences of not planning and preparing 
could be catastrophic and heartbreaking.
    The NBPC is eager to begin preparations immediately and in that 
spirit, I am pleased to share with the subcommittee the below 
recommendations that we believe will make a significant difference in 
Border Patrol operations, the health and safety of our agents and the 
individuals that we encounter, if implemented. We welcome your feedback 
and would greatly appreciate your support for these measures.
                     steps we need to be taking now
    Additional detention capacity.--The need for additional space is 
going to be critical even if Border Patrol continues to expel illegal 
immigrants under Title 42. The size of a potential surge, the country 
of origin of the illegal immigrants, the willingness of countries to 
take back their own citizens, and the health status of the individuals 
we apprehend are all factors that are going to drive the need for more 
capacity. Catch-and-release in a pandemic is simply not an option.
    In-field processing.--We have had good success processing detainees 
in the field. This is one of the reasons that I believe we have kept 
our COVID-19 infections low. By processing in the field we are not 
exposing an entire Border Patrol station to a potentially infected 
individual. One limiting factor is internet connection. Without proper 
connection we cannot conduct criminal background checks and enter 
biometric data on the detainees. As you know, internet connectively is 
spotty at best along the border. However, there is military technology 
available that could give us this connection and it is my understanding 
that it can be done at a minimal cost.
    Testing.--Border Patrol currently does not have any testing 
capability for agents. Instead, we must rely on local medical 
facilities which in border communities are already overstretched. Given 
that COVID-19 will remain a threat until a vaccine is developed, Border 
Patrol leadership needs to either develop this capability in-house or 
contract out the function.
    Temperature screening.--The most effective method available to 
quickly determine whether an individual may be symptomatic is body 
temperature screening. There are numerous vendors that make thermal 
cameras that can determine, at a safe distance, whether an individual 
is running a fever. We need to acquire this capability to both protect 
the agents and ensure that detainees who are sick are properly 
segregated from other detainees and treated.
    Preparing OFO officers to back up Border Patrol.--The Border Patrol 
has a long history of sending agents to assist at ports of entry when 
the Office of Field Operations is overwhelmed. Apart from the 2019 
crisis and only in the Rio Grande Valley, OFO has rarely been deployed 
to assist the Border Patrol. We need to be prepared to redeploy OFO 
officers to deal with a potential surge of illegal immigration. OFO 
officers have the same legal authorities that I have as a Border Patrol 
agent. They are terrific partners that can be helpful with detainee 
processing, transportation, and detention while the port traffic 
remains at low levels.
    I hope you will take these suggestions into consideration, some of 
which come at no cost to the taxpayer.
    Again, I would like to thank you for the opportunity to testify on 
behalf of rank-and-file Border Patrol agents and I am happy to answer 
any questions that you might have.

    Ms. Torres Small. Thank you very much, Agent Judd.
    I thank all of the witnesses for their testimony. I will 
remind each Member that he or she will have 5 minutes to 
question the panel. I will now recognize myself for questions.
    I understand that DHS headquarters developed guidance for 
resuming operations, but it is allowing individual components 
to take the lead on when and how they reopen facilities and 
resume functions that were paused or modified due to the 
coronavirus pandemic. As we have noted just recently, we are on 
limited time here, so I would ask each witness, starting with 
Mr. Judd, to just very briefly describe the level of engagement 
your representatives have had with individual DHS components on 
their plans for reopening, just how you have engaged.
    Mr. Judd. We have had a high level of engagement. I 
continue to communicate with Commissioner Morgan as well as 
Chief Scott on a regular basis. As far as what needs to be 
done, Chief Scott has done a very good job of allowing his 
sector management to determine what needs to be done to reopen 
facilities fully. Again, I appreciate the level of commitment 
that he has shown to making this happen.
    Ms. Torres Small. Thank you, Mr. Judd.
    Dr. Kelley, your extent of engagement with representatives?
    Oh, I apologize. If you can go off mute. There you go.
    Mr. Kelley. Thank you so very much, OK. Let me just say, 
first of all, you know, unlike Council President Judd, we have 
had, you know, any number of attempts to try to get the various 
agencies to communicate with us and work with us, you know, 
however, we have been unsuccessful. Most of DHS, you know, we 
have just not been able to get them to allow us to come to the 
table and share, you know, in the responsibility, I am going to 
call it responsibility because I think that is what we all 
have, you know, getting our workers back to work safely, you 
know. I would leave it with that.
    Ms. Torres Small. Thank you, Dr. Kelley.
    Mr. Reardon.
    Mr. Reardon. Yes. Thank you for the opportunity to answer 
this question. We have had, actually, a pretty high level of 
discussion with CBP. We talk to DHS on a weekly basis, you 
know, with Angie Bailey, the NCO, and we have had engagement 
with her, and also just directly with the Acting Commissioner 
Morgan, who I personally met with on a couple of occasions. We 
have routine and on-going conversation with the leadership, 
among other folks that comprise the leadership at CBP. So we 
have had a considerable amount of interaction with them.
    Ms. Torres Small. Thank you, Mr. Reardon.
    I understand that the Federal Law Enforcement Training 
Center, FLETC, put a significant amount of time and effort into 
developing its plans to resume operations. These plans require 
students to arrive on campus 14 days before resuming in-person 
trainings. FLETC also plans to test students at least twice for 
COVID-19 during that 14-day period and test staff who engage 
regularly with students weekly. However, not all staff will be 
tested, and staff do not stay on campus housing, which means 
they must travel in and out between the campus daily.
    Mr. Reardon, do you believe FLETC has done everything it 
can to mitigate infection risks to its employees' and students' 
health before resuming operations?
    Mr. Reardon. Well, you know, I think that they have done--
they have certainly put together a plan, and I think you 
articulated certainly my understanding of the plan that they 
put in place pretty well. You know, one of the concerns that I 
do have, however, and you mentioned it, is you have got staff 
who are going home. They are going out into the community, and 
then they are coming back in and, you know, it seems to me that 
it would probably be pretty--it would be appropriate to ensure 
that they are being tested as well. I think, you know, 
furthermore, it is important that there is a robust testing and 
contact tracing program put in place at FLETC as well.
    Ms. Torres Small. Thank you, Mr. Reardon.
    Mr. Judd, in the remaining 40 seconds, do your agents have 
enough PPE for themselves and the people they interact with to 
keep themselves safe right now?
    Mr. Judd. That is one of the things I am very grateful that 
DHS did well ahead of time. They gave us plenty of PPE. We have 
been able to protect ourselves as well as those individuals 
that we come in contact with. If this is what has been done 
Department-wide, I think that we are in a very good place.
    Ms. Torres Small. Thank you, Mr. Judd.
    I yield the remainder of my time, and now recognize the 
Ranking Member of the subcommittee. Oh, I apologize. Yes. I now 
recognize the Ranking Member of the subcommittee, the gentleman 
from Texas, Mr. Crenshaw, for questions.
    Mr. Crenshaw. Thank you, Madam Chairwoman. I do need to say 
I hope in the future, if we are going to do oversight of DHS 
and see how they are going to get back to work, we need to have 
someone from DHS present, and I need to be on record saying 
that. It should not be up to the Minority with our one witness 
to make sure that there is somebody from the Department to come 
to the hearing.
    The other thing I need to say, and it is in response to the 
Chairman's very partisan comments about the President trying to 
ignore doctors' advice every single day as he doesn't wear a 
mask. He knows very well that the President gets tested 
sometimes multiple times a day and, therefore, there is no need 
to wear a mask.
    If we are going to talk about science-based getting back to 
work, then we actually have to use some science, and we 
actually have to ask some doctors. Doctors have told us over 
and over again the reason you wear a mask is to prevent you 
from sneezing or coughing on somebody else and possibly getting 
them infected. It doesn't prevent you from getting infected. We 
have to remember these very basic things.
    We have learned a lot in the last few months. We made a lot 
of mistakes, and we continue to apparently advocate for those 
mistakes. The Chairman said we are getting back to work too 
early, that we opened up too early. That is nonsense. If 
anything, the data shows that we opened up way too late, way 
too late. We know this in hindsight. I am not blaming anybody 
for this.
    But this notion that we should continue instilling fear in 
people is very, very harmful to our society. There is risk in 
this world, and we are never going to get around to fully 
mitigating every possible cause of harm.
    Since the start of stay-at-home orders and social 
distancing, America's grocers and nurses and other essential 
workers have continued to go to work. They felt a sense of duty 
to actually do that, so I am going to be asking some questions 
here about why. Some of these demands are very reasonable. Some 
of them go well beyond what our private industry and what our 
grocers have been doing every single day.
    I also have to point to some more data which shows that the 
vast majority of cases that we see come from residential 
origins. They are not coming from health care workers. They are 
not coming from first responders. This is coming--this is all 
from New York. We have got the most cases. We have the most 
data. They are not coming from transit workers either. This 
tells us something. This informs us about how this disease is 
actually spread, and it is probably not spreading in office 
spaces where people are separated by cubicles and offices.
    OK. Dr. Kelley, I want to start with you. There was--again, 
many of the things you guys are asking for are perfectly 
reasonable and understandable, but some of it is, I think, 
unattainable. For instance, the 14 days of exponential decline. 
Do you mind expanding on exactly what you mean by that, because 
that goes a bit beyond what even CDC guidelines are, which I 
also think are misguided? But please explain how that is 
possible and how you might compare that demand to a geographic 
area that has decided to open. Will you not send your Federal 
workers back in an area because you might see a daily spike or 
something even though everybody else in that area might be back 
at work?
    Mr. Kelley. I think, first of all, you know, we should be 
very concerned about the entire population of the United States 
of America, you know. Certainly, I am personally concerned 
about the welfare and well-being of the members that I 
represent. But after universal testing and the identification 
of the extended risk by location, the Federal Government should 
apply prudent apolitical science-based standard on the safe 
return of Federal employees to their work site.
    Now, you know, entomologists and other public health 
experts recommend the standard of 14 days of exponential 
decline in new cases within a region before erasing quarantines 
and shelter-at-home restrictions. For Federal employees, the 
region should be defined by community areas----
    Mr. Crenshaw. I understand the guidance. I understand the 
guidance. I am asking you to think through it. Because here is 
the thing: In Houston, you could have, you know, a plateau of 
100 cases a day, which is basically what we have, between 100 
and 200 cases a day. We have never really changed. So you are 
saying we can never go back to work here?
    Mr. Kelley. No, I am not saying that.
    Mr. Crenshaw. That is 4 million people, right? Because I 
mean, that is what I mean, like, we have to think through some 
of these guidelines.
    Mr. Kelley. I certainly think that we have to think through 
the guidelines. However, I think that because there have been 
so much, you know, inconsistencies across the board, you know, 
and we have to be consistent as the Federal Government. That is 
all that I am saying. We should be consistent. We should make 
sure that our entire Federal Government system is ready to go 
back.
    Mr. Crenshaw. But, sir, you are implying allowing for some 
flexibility, right, just based on that simple thought 
experiment that I just gave you? Because you could have New 
York City declining by thousands every single day, but they 
still might have another 5,000 cases a day. Do you see what I 
am saying? Like, sir, I just want to--I think--and I think 
maybe we are agreeing that there must be some flexibility 
within those guidelines.
    It looks like I am already out of time. That went fast. I 
yield back.
    Ms. Torres Small. Thank you, Ranking Member.
    The Chair recognizes for 5 minutes the gentleman from 
Alabama, Mr. Thompson.
    Mr. Thompson. Well, I will be from Mississippi, but----
    Ms. Torres Small. I am so sorry.
    Mr. Thompson. Oh, that is all right.
    Ms. Torres Small. I am so sorry.
    Mr. Thompson. I have been called a lot worse.
    Let me be clear. Whatever we do in bringing the work force 
back, it should be with the advice and guidance of the medical 
experts. We can't assume anything else other than what the 
medical experts say.
    Our President toured a facility in Maine last week without 
a mask on. All the work that plant did last week they had to 
throw out because he didn't wear a mask. So I am clear about 
wearing masks. I am clear about setting an example. The notion 
that we now have a colleague who came back to Washington last 
week and sat on the floor of the House of Representatives 
without a mask, and his whole family now has COVID-19, puts the 
entire U.S. House of Representatives at risk.
    So with that as a backdrop, I want us to all recognize that 
this is a serious, serious matter. Wearing a mask is not a sign 
of weakness. It means that you understand the challenges that 
you are confronted with. So I look forward to us making sure 
that as we bring the work force back, we do it in a manner that 
we consult with the medical experts and get the proper 
guidance, so we don't put those individuals at risk or the 
people they come into contact with. I compliment the Chairwoman 
for having this kind of discussion.
    So, Mr. Reardon, do you see a need for more engagement at 
the DHS headquarters level around how do we bring people back 
and clear guidance or are you satisfied with the engagements 
that is going on now?
    Mr. Reardon. Well, Mr. Chairman, I will say that I am 
somebody who always believes that more engagement rather than 
less is good. I think there are opportunities in terms of 
guidance that goes out. You know, for example, I think the 
guidance that exists around how long you need to be face-to-
face with somebody, you know, before you--that later on has 
been determined to have COVID-19, is--I think it is important 
to figure out, you know, how we deal with that.
    Right now, the guidance says, well, it is anything from you 
talked to the person for 10 minutes to 30 minutes. I know after 
a lot of conversations that I have had with a lot of my chapter 
leaders around the country, they don't have a real good 
understanding of, so what is the guidance really saying? What 
does it mean?
    So I think that anything that can be done to increase the 
amount of communication. You know, I think it is one thing to 
put out guidance, and I think CBP and ultimately DHS have done 
a decent job of putting out some guidance, but I think there 
needs to be some follow up so that people understand exactly 
what does that guidance mean, and how do I use that in certain 
situations? You can't deal with every situation, I get that.
    Mr. Thompson. So are you saying that sometimes the guidance 
is not clear to the people you are sharing it with?
    Mr. Reardon. My sense is that at times, the guidance isn't 
completely clear, and folks don't know exactly how to implement 
the guidance. So I think more conversation around that, more 
communication is helpful.
    Mr. Thompson. So, Dr. Kelley, what has been your experience 
with the guidance coming either from DHS or TSA or any of your 
other members?
    Mr. Kelley. We have participated in some weekly meetings, 
but we do believe that more engagement and consideration of 
workers' influence is very much needed in this particular 
situation. The guidance has been, you know, kind-of--you know, 
many of them are unsure what the guidance says, just like 
Brother Reardon said. But if there would be more engagement, I 
think we can get a better sense of exactly what the guidance is 
saying.
    Mr. Thompson. Thank you.
    I yield back, Madam Chair.
    Ms. Torres Small. Thank you, Mr. Chair. We appreciate your 
understanding.
    The Chair recognizes for 5 minutes the gentlewoman from 
Nevada, Ms. Titus.
    Ms. Titus. Well, thank you very much, Madam Chairwoman. 
Thank you for holding this committee.
    I would like to just ask Dr. Kelley some questions. Lou 
Correa, who is Chairman of the Subcommittee on Transportation 
and Maritime Security of this committee, and I wrote to the TSA 
administrator about health care for part-time TSA workers, and 
we had the Chairman's support in this, and I thank him very 
much for that, Mr. Thompson. We then introduced a bill that is 
H.R. 6647, Health Care Opportunities for Transportation 
Security Administrative Employees. We believe that if you are 
on the front lines, even if you are part time, during these 
dangerous days where you are really getting exposed, that you 
should be entitled to health care.
    We see it here in Las Vegas that air travel is picking up. 
More people are going through our airports. Our TSOs are more 
in danger of being exposed. Could you address what some of the 
challenges are that they are facing, and give us your opinion 
about part-time employees receiving that kind of coverage like 
everybody else?
    Mr. Kelley. Thank you. Yes. I appreciate you and the 
Chairman on your efforts to make sure that these employees have 
the necessary protection that they need. You know, in these, so 
many times, the employees are put in a lot of stressful 
situations. They are constantly concerned about their welfare, 
their well-being, whether or not they are going to carry some 
illness home to their family, you know, because in their mind, 
and in my mind as well, it doesn't matter if you work 20 hours 
a week, you know you are still exposed for those 20 hours, or 
if you work 40 hours a week. So the exposure is still there. So 
we are hoping that we can get funding down the road with this 
particular issue.
    Ms. Titus. Well, thank you. I hope so too because you are 
right, they are exposed when they are there.
    I would also ask you, we are hearing more about, as we 
reopen, how we are going to do it in the airports? Are we going 
to take people's temperature? What happens to somebody who has 
found to have a fever? Where do they go? Who is responsible? 
The airlines, of course, don't want that responsibility. The 
airports don't especially want it, and they are starting to 
want to push it off to TSOs, but their job is more security 
than it is health care. Could you talk about that as well?
    Mr. Kelley. Well, you know, once again, I do applaud the 
work that the TSOs do every single day, they are very patriotic 
employees, and we have seen it over and over again, but they 
are not medical professionals. I think that this is a task that 
needs to be assigned to a medical care professional and not a 
TSO officer. They do an outstanding job at, you know, making 
sure that the public fly safely, but I don't know how well they 
will fare if they have to become a medical professional.
    Ms. Titus. Thank you. Those are my questions.
    I will yield back, Madam Chairwoman.
    Ms. Torres Small. Thank you, Congresswoman Titus.
    The Chair recognizes for 5 minutes the gentlewoman from New 
Jersey, Mrs. Watson Coleman.
    Mrs. Watson Coleman. Thank you very much, Chairwoman. I 
appreciate this hearing. Thank you to each of the witnesses for 
the information that you shared.
    I first want to respond to the Ranking Member's concerns 
about not having administration representatives at the 
committee meetings. We have consistently invited members of 
this administration, the DHS administration, and other offices 
to come before us, and they have declined to do so. So it isn't 
that we don't want to hear from them, because we most assuredly 
want to hear from them. Ultimately, they are the ones that are 
going to be held responsible, and we want to make sure that we 
are doing all the work that we need to do to ensure that when 
we do reopen, we reopen safely, that the people we serve are 
safe, that the people who are doing the work are safe, and that 
we know what to do should there become a re-shutdown. So I just 
want to put that on the record so that the record represents 
more than just sort-of one perspective on what is happening in 
the world.
    I have a question. There was a question that was raised to 
Mr. Judd, Mr. Kelley, and Mr. Reardon regarding their 
interaction with the Department of Homeland Security, and Mr. 
Judd responded good interaction, strong. Mr. Reardon said high 
level with CBP and DHS, routine interaction with DHS 
leadership. Mr. Kelley said not very successful in working with 
DHS. So I want to drill down a little bit. I want to know a 
couple of things, and if they can just be ripped off really 
quickly, that would be fine.
    So, Mr. Judd, Mr. Kelley, and Mr. Reardon, tell me the 
components, the offices that you deal with, and then tell me 
the individuals that you have been seeking or having 
interaction with. Mr. Kelley in particular, I want to know from 
you, where have you not gotten the kind of feedback and from 
whom that you thought you needed in order to have this 
discussion about how we move forward safely?
    Those are my questions, Madam Chair. I want to hear from 
everyone. We can start with Mr. Judd, and then we can go to Mr. 
Reardon, and then we can end with Mr. Kelley.
    Mr. Judd. Thank you. I will be glad to answer. I have 
communications with the top level in Border Patrol. That is 
directly with Chief Scott. I have had communication with the 
top level in CBP, which is Acting Commissioner Morgan. If need 
be, I can go to DHS and speak with the DHS chief of staff, John 
Gountanis but I haven't needed to go there. I haven't needed to 
exercise that privilege. I have been able to work through the 
issues with Chief Scott and Acting Commissioner Morgan.
    Mrs. Watson Coleman. Thank you.
    Mr. Reardon. This is Tony Reardon. I will jump in there. At 
DHS, as I think I mentioned earlier, I have a weekly call with 
Angie Bailey, the CHCO at DHS. With regard to--you are on mute.
    Mrs. Watson Coleman. Here we go.
    Mr. Reardon. Still muted. I can't hear you.
    Chief Human Capital Officer. Sorry.
    Mrs. Watson Coleman. Thank you. Your employees work under--
--
    Mr. Reardon. Yes. The Office of Field Operations within 
CBP, and we also represent some employees at the Federal Law 
Enforcement Training Center.
    So Angie Bailey I deal with, as I said, weekly. I also have 
had quite a few interactions with Acting Commissioner Morgan, 
as well as Deputy Commissioner Robert Perez. We have, I don't 
know if I would say daily, but we have very frequent 
interactions with Executive Assistant Commissioner Todd Owen at 
CBP in the Office of Field Operations. Then, of course, you 
know, we have chapter leadership locally around the country, 
and they deal with local management and the DFOs that are 
around the country, so we have, I mean, quite a bit.
    Mrs. Watson Coleman. Thank you.
    Mr. Kelley.
    Mr. Kelley. OK. Can you hear me now? OK.
    Well, first of all, you know, as I have mentioned, you 
know, we have participated in some weekly calls, but we would 
like to have more communication between the agency leadership 
and the workers. We should have more communication between 
agency leadership and--like the TSO counsels, TSA counsels, or 
the FEMA counsel, or--you know, we are just not getting that 
level of communication, and I think we need that if we are 
going to be successful.
    Ms. Torres Small. Thank you, Mrs. Watson Coleman. I 
apologize, but your time has expired and I appreciate the 
questions.
    Now, the Chair recognizes for 5 minutes the gentlewoman 
from California, Ms. Barragan.
    Ms. Barragan. I thank you, Chairwoman Torres Small, for 
convening this hearing.
    As the States and the local governments begin to reopen and 
people start to physically return to work, we must keep in mind 
that the pandemic is not over. The coronavirus is still 
impacting all aspects of life daily. Cases are still on the 
rise, and health experts predict a second wave of infections. 
You don't have to look any further than to look and hear Dr. 
Fauci and his concerns that he has expressed and the medical 
data that he is relying upon.
    I want to, you know, say that, in California alone, we have 
seen infections top 151,000, and nearly 5,100 people just in 
Los Angeles county have died. That accounts--that accounts for 
lots of lives that are being impacted. So I think it is 
critically important that we are having this conversation on 
workers and asking what can be done to make sure that when we 
try to go back to some sense of normalcy, that we do so safely.
    Mr. Judd, I would like to start a question to you. In your 
statement, you advocated for Border Patrol to get thermal 
scanners in an effort to screen the health of migrants at the 
border. However, makers of these scanners have cautioned that 
they are not intended for medical use and can only scan for 
elevated skin temperatures, which can be caused by a variety of 
other factors, for example, physical exertion while outside in 
warm climate like the Southern Border.
    Mr. Judd, what information has led you to believe that this 
would be an effective screening measure for the Border Patrol?
    I think you are on mute, sir.
    Mr. Judd. Can you hear me now?
    Ms. Barragan. I can hear you now. Thank you.
    Mr. Judd. OK. I went to my personal doctor. I have been to 
the doctor several times during the pandemic, and they have 
told me that these scanners work very well. We have also done 
our own personal research. Again, I am not saying that it is 
the be-all, end-all, but it is one of those indicators that we 
need to look at. We need to be available to identify when 
somebody is showing certain symptoms of the pandemic, of COVID-
19, to ensure that it is not spread throughout the United 
States. So we need to look at all of the different things that 
we can possibly use, and that is just one tool that would help 
us look for indicators.
    Ms. Barragan. OK. Well, thank you. I guess my caution is, 
if the makers of the devices themselves are warning they are 
not for medical use, would that be the best use of our 
resources? But thank you for your insight on that.
    Mr. Judd, one more question for you. We have certainly seen 
the reports about the use of CBP agents and ICE agents at 
protests nationally, certainly in Washington, DC. What are CBP 
agents doing at these protests? Can you shed some light? It 
certainly instills fear amongst immigrants who want to exercise 
their First Amendment rights, and the militarized exercise, you 
know, scares citizens too.
    I believe that DHS has confirmed that CPB will be active in 
Arizona and California. Can you give me some insight on what 
CBP officers are doing there?
    Mr. Judd. Yes. First and foremost, we don't make that 
decision on our own. We are not the ones who decide whether or 
not we are going to go in and help. What we do is, when we 
receive requests for assistance from other law enforcement 
agencies, then we go in and we assist them, under their 
authority, not under--not under any authority under any 
immigration authority. So we are not there to arrest anybody 
for immigration violations. We are not the military, so we are 
not militarizing anything. We are law enforcement, so we are 
assisting our local law enforcement partners when they ask for 
assistance.
    Ms. Barragan. OK. Thank you, sir.
    Mr. Kelley--Dr. Kelley--I apologize for that--U.S. 
Citizenship and Immigration Services, which is funded by fees 
paid by applicants, recently announced it expects to run out of 
funding by the end of this summer. The agency noted a drop-off 
in applications during the pandemic, which likely exacerbated 
issues caused by the administration's policy aimed at curbing 
legal immigration over the past several years.
    Dr. Kelley, how do you think this budget shortfall will 
affect the components' ability to adequately provide staff with 
PPE and modified facilities to adhere to social distancing 
guidelines?
    Mr. Kelley. I think that it vastly affects the ability to 
provide that care for those employees and immigrants. I think 
that we have to make sure that they are funded adequately so 
that we can ensure that the protection is there.
    Ms. Barragan. All right. Thank you, sir.
    I yield back.
    Ms. Torres Small. Thank you.
    I thank the witnesses for their valuable testimony and the 
Members for their questions. I also thank everyone for their 
patience as we work through the bugs that we have seen in the 
midst of all of this and, again, reiterate my gratitude for 
everyone's willingness to do this on-line forum hearing.
    I also want to thank the committee staff, both the Majority 
and the Minority, for working on this issue. We will continue 
to work to find ways to make sure that relevant witnesses are 
able to attend these formats, and I look forward to working on 
that with the Minority as well.
    The Members of the subcommittee may have additional 
questions for the witnesses, and we ask that you respond 
expeditiously in writing to those questions. Without objection, 
the committee record shall be kept open for 10 days.
    Hearing no further business, the subcommittee stands 
adjourned.
    [Whereupon, at 1:15 p.m., the subcommittee was adjourned.]



                            A P P E N D I X

                              ----------                              

 Questions From Honorable Bonnie Watson Coleman for Anthony M. Reardon
    Question 1. During the hearing, you were asked about the level of 
engagement your representatives have had with DHS and individual 
components on their plans for re-opening.
    In instances where you described the level of engagement as 
positive, please provide more details on the type of information your 
representatives received. How frequently and in what format was this 
information provided?
    Answer. NTEU has had frequent conversations (at least once a week) 
with CBP Office of Field Operations leadership and two meetings with 
the CBP Commissioner since mid-March 2020 where we were able to discuss 
employee health and safety issues.
    For non-uniformed personnel, our engagement has and continues to be 
positive. OFO continues to maximize telework for employees whose work 
is portable.
    For uninformed personnel, initially, the CBP Field Offices and Port 
Directors worked collaboratively with employee representatives toward 
the objective of safeguarding CBP employees at the ports which sent an 
encouraging and strong message to CBP employees that CBP cares about 
their well-being and that of their families. This collaboration boosted 
employee morale.
    As a result of these discussions and collaboration, in late March 
OFO worked with NTEU to use weather and safety leave (WSL) to 
temporarily revise work schedules and reduce staffing at ports of entry 
when and where appropriate to protect the health of the work force 
while still meeting operational demands. This created opportunities for 
social distancing at ports of entry in accordance with Centers for 
Disease Control recommendations while maintaining operational capacity 
and ensuring there would be a cadre of healthy CBP officers available, 
as necessary. The revised schedules were carefully designed to ensure 
that operational demands were still being met. In addition, CBP 
personnel placed on WSL were on standby and were required to remain 
ready to report to work at any time.
    On April 6, 2020, CBP implemented reduced hours of operations at 45 
ports of entry along the Northern and Southern Borders due to 
diminished cross-border traffic. However, on that same day CBP 
announced that it was immediately canceling WSL for CBP officers at 
Northern and Southern land border ports of entry and requiring full 
staffing.
    The stated rationale for the decision was that CBPOs are needed to 
be ready to assist Border Patrol should they need assistance stopping 
an anticipated influx of COVID-19 infected migrants crossing the 
borders between ports. Aside from the fact that there is no evidence 
that such a threat exists, this is a short-sighted decision, to say the 
least, from a health and safety perspective. As we all know, taking 
advantage of reduced traffic at the border by reducing staffing reduces 
the overall exposure of the workforce to the coronavirus. There is a 
scientific and medical consensus that the spread of the virus is slowed 
by safe social distancing and limiting interactions between 
potentially-infected individuals and others. This is particularly true 
now that it is widely accepted that asymptomatic individuals may 
transmit the virus.
    Requiring CBP officers to show up to work when it is not 
operationally necessary runs directly counter to this consensus. It 
puts at grave risk the long-term health of the CBP workforce as this 
country fights the pandemic, which in turn puts the security of this 
country at risk. This decision unnecessarily puts the health and safety 
of CBP officers at risk, potentially undermining their mission and 
exacerbating community spread of COVID-19 at our borders.
    After consultation with NTEU, CBP agreed to continue 1 day of WSL 
per week for CBP agricultural specialists on the Northern and Southern 
Borders, but NTEU was not able to convince CBP to reinstate WSL to all 
CBP officers.
    NTEU never expected the current rate of WSL usage would continue 
indefinitely so it was not surprising that we were notified by OFO in 
late May that it would begin to reduce the amount of WSL used by CBPOs 
and agriculture specialists in conjunction with reopening the economy. 
Field Offices were expected to start discussions with local NTEU 
chapters about the drawdown process and those with high-risk medical 
conditions would remain on WSL and teleworkers would continue working 
from home.
    Despite assurances from the agency that it would be a gradual 
process, some ports abruptly canceled weather and safety leave as of 
Monday, June 8, without consulting local NTEU chapters. NTEU has raised 
this issue with CBP, which agreed that WSL hours must be gradually 
reduced in accordance with discussions between local NTEU chapters and 
local port management and give employees enough notice to adjust their 
personal and family obligations and schedules.
    We strongly opposed the agency's decision to not provide the WSL to 
all ports during the COVID-19 pandemic. It was a smart way to reduce 
employee contacts with the public and limit their time in crowded 
facilities, and it should not be revoked unless the workload at the 
port demands it. Local port arrangements on WSL was a smart way to help 
protect employees and their families from the coronavirus risk. That 
risk has not gone away (and in many border States has increased) as the 
economy reopens and that is why NTEU will continue to insist that all 
health and safety protocols, including reinstating WSL where 
appropriate, are followed at the ports.
    NTEU has also had weekly or bi-weekly calls with the DHS chief 
human capital officer to raise issues and hear what they are planning 
agency-wide. We have consistently used these calls as an opportunity to 
ask when DHS will be implementing testing for all employees whose jobs 
require them to be at the work site and an effective contact tracing 
protocol based on the testing. Unfortunately, while DHS has been 
talking about piloting an app for contact tracing, nothing has been 
rolled out yet. And currently, the only place DHS is conducting wide-
spread testing is at FLETC and they seem to be nowhere near able to 
conduct wide-spread testing across DHS. We are concerned that this lack 
of testing and contact tracing, coupled with DHS's policy to require 
potentially exposed personnel to continue to report to work and self-
monitor for symptoms rather quarantine unless they have an unprotected 
exposure within 6 ft for at least 15 minutes, could lead to significant 
spread of the virus. DHS is not acting fast enough in this area.
    Question 2. In instances where you would not describe the level of 
engagement as positive, please provide more details on how these DHS 
offices or components were non-responsive to your representatives. What 
information would have been helpful to your organizations?
    Answer. On June 19, NTEU was informed that OFO would be required to 
provide 810 CBP officers to work at Border Patrol checkpoints in the 
Rio Grande Valley (RGV) and Laredo Sectors, for 120 days. Deployed 
officers would also be monitoring border surveillance cameras for 
illegal crossings. Deployments were to commence as early as June 29, 
with solicitations beginning June 22. NTEU had been in regular contact 
with CBP OFO and we were given no warning that this was being 
discussed. It appears that the decision was made quickly, at the 
Department level, with OFO only being informed on June 19, as well.
    The justification for the deployment, as explained to NTEU, is the 
increasing numbers of apprehensions and ``got aways'' in these areas. 
DHS/CBP wants to decrease the number of ``got aways'' by having more 
Border Patrol agents on patrol, which creates the need for more 
checkpoint and surveillance camera staffing. Apprehended individuals 
are immediately deported under Title 42 authority.
    CBP OFO plans to meet the directive by detailing 810 SCPBOs and 
CBPOs in 2 separate 60-day temporary duty assignments--505 to the RGV 
and 305 to Laredo. Additional Air and Marine, ICE, and DOD personnel 
will also be deployed to the 2 sectors. Detailed CBP officers will 
assist Border Patrol by manning 3 Border Patrol checkpoints, 2 in the 
RGV and 1 in Laredo. Because of COVID-19 infection concerns at these 
hotspots, detailed officers will be required to wear surgical masks at 
the primary checkpoints and N95s in secondary.
    Volunteers were solicited from the major airports, the numbers, 
which include supervisors and front-line officers, currently breakout 
as follows: ATL (36); Dulles (35); ORD (32); DFW (20); Houston (46); 
LAX (100); FLL (30); MIA (148); Orlando (12); JFK (170); NY/Newark 
(90); SFO (60). Officers from Brownsville and Laredo currently 
assisting the Border Patrol make up the difference between these 
numbers and the 810 officers that OFO is required to provide.
    NTEU and OFO have been discussing deployment details, including 
excusals for involuntary deployments should there be insufficient 
volunteers. CBP officers who are high-risk because of underlying 
medical issues will not be detailed. Officers detailed for 60 days will 
be allowed to volunteer for a second 60-day assignment. There will be 
no opportunity to return home during the 60-day assignments. Detailed 
officers will be flown to San Antonio or smaller airports (e.g., 
McAllen) near the border. They will be housed in hotels and assigned 4 
officers per rental car.
    There are several issues surrounding this deployment that are worth 
noting:
    1. NTEU questions the necessity of any deployment and the quick 
        turnaround. NTEU has seen no justification or data that 
        indicates a need for this. We have anecdotal reports of Border 
        Patrol agents at the Southwest Border with not enough work to 
        do--which begs the question about whether this deployment is 
        even justified. It is true there has been an increase in Border 
        Patrol arrests in the last month or so, as well as reported 
        ``got-aways'' but we are still nowhere near the activity of 1 
        year ago. NTEU has asked CBP for more information about why 
        they need to do this, and we urge the committee to do the same.
    2. It is NTEU's understanding the funding for these Temporary Duty 
        Assignments (TDYs) will come from other CBP programs. 
        Reportedly, DHS ``found'' available funds and submitted a 
        reprogramming request to House and Senate appropriators on June 
        30. Appropriators have 15 days to review this request.
    As with any TDY, there is concern about leaving home ports 
understaffed. Travel volume remains down but as it starts to pick up, 
airport and airline officials are not going to want long lines of 
international travelers. This deployment not only pulls people away 
from their homes, but it moves officers from around the country to this 
COVID-19 hotspot. Between traveling, staying in a hotel, sharing 
vehicles, etc., the risk to our members is potentially catastrophic.
    As of July 5, CBP has had 1,058 Federal employees test positive for 
COVID-19. Five CBP officers at airports of entry have died as a result 
of the virus and many more are quarantined due to exposure. This 
deployment increases the odds of the virus spreading among CBP's 
workforce at the ports of entry as well as to the public.
    This deployment has been postponed for now, presumedly until this 
reprogramming funding is approved. It is important that appropriators 
know that these TDYs are a waste of money and unnecessarily expose CBP 
officers to greater risk of contracting and spreading the coronavirus.
    NTEU urges the committee to contact your colleagues on the House 
Appropriations Committee and ask them to deny the fiscal year 2020 
reprogramming request to fund these TDYs.
    In sum, NTEU's engagement with CBP's OFO has been positive, 
overall. Unfortunately, OFO has been directed by CBP and DHS to take 
actions, with little to no notice, which has negatively impacted our 
ability to collaborate on reopening plans that accomplish CBP's mission 
while also addressing the health and safety interests of the workforce.
  Questions From Honorable Bonnie Watson Coleman for Everett B. Kelley
    Question 1. During the hearing, you were asked about the level of 
engagement your representatives have had with DHS and individual 
components on their plans for re-opening.
    In instances where you described the level of engagement as 
positive, please provide more details on the type of information your 
representatives received. How frequently and in what format was this 
information provided?
    Question 2. In instances where you would not describe the level of 
engagement as positive, please provide more details on how these DHS 
offices or components were non-responsive to your representatives. What 
information would have been helpful to your organizations?
    Answer. Most of the engagement I would describe as ``positive'' has 
been limited to communications between AFGE staff in our National 
office and officials at DHS tasked with engagement with the union. The 
DHS chief human capital officer has met regularly with National union 
representatives and provided very limited information about the 
components' plans regarding COVID-related policies. While they have 
shared reopening protocols, they have been far less forthcoming with 
information regarding the rationale and underlying data connected with 
the impending CIS furloughs/layoffs.
    With respect to engagement that I would not describe as positive, 
it would be the engagement with the workforce, including elected union 
representatives by the agencies within DHS. Unless it serves their 
motives, agencies have been quite rigid with respect to workforce 
communications and engagement with union representatives. Because of 
the President's Executive Orders issued in May 2018, union 
representatives have little or no official time to provide 
representation to the bargaining units. In 2017, he issued an Executive 
Order ending labor-management relations. As a result, even as USCIS is 
preparing to furlough over 70 percent of its work force, it has forced 
union representatives to be on leave status when discussing the terms 
of the furlough and its impact on represented employees. At the Coast 
Guard, the union has suggested a different staffing rotation for 
return-to-work than the agency has proposed, but the union's request 
has been ignored. Coast Guard management proposes rotating every other 
day between being in the office and on telework, dividing the workforce 
into two separate groups to allow for spacing. The union proposed every 
other week. This provides for more continuity of work and allows for a 
thorough cleaning between rotations of one group of staff and the 
other. At TSA, even as the virus is raging, the agency has decided that 
those personnel with compromised health conditions must return to work. 
Early attempts to engage with all DHS components with respect to 
provision of personal protective equipment and other safety measures 
were widely ignored and most communications from the union had to be 
conducted on leave status. These are discussions about measures to 
protect the health and the lives of the workforce. They should not have 
to be conducted on leave status. Agency representatives are able to 
communicate with the workforce on agency time; union representatives 
cannot suggest ways to keep people from dying without taking annual 
leave to do so. In every coronavirus relief package that Congress has 
taken up thus far, AFGE has proposed that labor-management relations 
resume for the purpose of addressing workforce needs during the 
pandemic. For agencies within DHS, this involves thousands of workers 
on the front lines. Insisting on this communication is essential to the 
lives and health of our workforce.
    Thank you for the opportunity to provide a more thorough response 
to the committee's questions and thereby assist in your important 
conduct of oversight. Should you have additional questions, please 
contact Julie Tippens, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="deb4abb2b7bbf0aab7aeaebbb0ad9ebfb8b9bbf0b1acb9f0">[email&#160;protected]</a>
    Questions From Honorable Bonnie Watson Coleman for Brandon Judd
    Question 1. During the hearing, you were asked about the level of 
engagement your representatives have had with DHS and individual 
components on their plans for re-opening.
    In instances where you described the level of engagement as 
positive, please provide more details on the type of information your 
representatives received. How frequently and in what format was this 
information provided?
    Answer. I do not have regularly-scheduled meetings with agency 
leadership to discuss operational issues confronting the Border Patrol. 
However, I have had multiple conversations with leadership at Border 
Patrol, CBP, and DHS throughout the pandemic to address concerns I have 
had. This includes Acting Secretary Wolf, Acting Commissioner Morgan, 
and Chief Scott and overall, I would describe these interactions as 
positive. At the sector and station level, local presidents and shop 
stewards have an on-going dialog with their respective leadership to 
address their specific concerns.
    Question 2. In instances where you would not describe the level of 
engagement as positive, please provide more details on how these DHS 
offices or components were non-responsive to your representatives. What 
information would have been helpful to your organizations?
    Answer. Let me give you 2 concrete examples. The first is a larger 
DHS issue and involves the process under which agents would be eligible 
for hazardous duty pay given their exposure to COVID-19. Right now, it 
is almost impossible for agents to establish exposure. This is because 
there is no testing capability for either the agents or the illegal 
immigrants we detain. Moreover, most of the detainees are expelled 
under Title 42 back to Mexico within 2 hours of apprehension. This is a 
classic Catch-22 by design. The agents are being exposed but do not 
have the documentation to establish the exposure. Although this issue 
is currently being litigated, I have asked DHS leadership proactively 
address this issue to allow agents to receive the hazardous duty pay 
they are entitled to under the law.
    On a more local level, there have been issues with individual 
agents not being allowed to self-quarantine. Currently there are almost 
1,000 agents who have been exposed to COVID-19 that are under self-
quarantine. However, we have had multiple instances of agents who have 
been exposed to COVID-19 who were denied the ability to self-quarantine 
by their supervisors. The union has raised this issue with their 
respective leadership with inconsistent results.

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
